<html>
<title> - [H.A.S.C. No. 109-103] DEPARTMENT OF DEFENSE QUADRENNIAL DEFENSE REVIEW</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 109-103] 

            DEPARTMENT OF DEFENSE QUADRENNIAL DEFENSE REVIEW 

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 14, 2006

                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     U.S. GOVERNMENT PRINTING OFFICE

32-969 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      



























                               
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
K. MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                Eric Sterner, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                   Regina Burgess, Research Assistant























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Tuesday, March 14, 2006, Department of Defense Quadrennial 
  Defense Review.................................................     1

Appendix:

Tuesday, March 14, 2006..........................................    57
                              ----------                              

                        TUESDAY, MARCH 14, 2006
            DEPARTMENT OF DEFENSE QUADRENNIAL DEFENSE REVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Ortiz, Hon. Solomon P., a Representative from Texas..............     3

                               WITNESSES

Donnelly, Thomas, Resident Fellow in Defense and National 
  Security Studies, American Enterprise Institute................    46
England, Hon. Gordon, Deputy Secretary of Defense................     3
Giambastiani, Adm. Edmund F., Jr., Vice Chairman, Joint Chiefs of 
  Staff..........................................................     5
Korb, Dr. Lawrence J., Senior Fellow, Center for American 
  Progress, Senior Advisor, Center for Defense Information.......    41
Krepinevich, Dr. Andrew F., Executive Director, Center for 
  Strategic and Budgetary Assessments............................    43

                                APPENDIX

Prepared Statements:

    Donnelly, Thomas.............................................    96
    England, Hon. Gordon.........................................    66
    Korb, Dr. Lawrence J.........................................    71
    Krepinevich, Dr. Andrew F....................................    83
    Skelton, Hon. Ike, a Representative from Missouri, Ranking 
      Member, Committee on Armed Services........................    61

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Abercrombie..............................................   103
    Mr. Marshall.................................................   103
    Mr. Ortiz....................................................   105
    Mr. Taylor...................................................   104
            DEPARTMENT OF DEFENSE QUADRENNIAL DEFENSE REVIEW

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 14, 2006.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The committee met, pursuant to call, at 2:03 p.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.
    The Chairman. The committee will come to order.
    The committee meets this afternoon to review the Defense 
Department's 2006 Quadrennial Defense Review (QDR). We will 
hear first from the department and then from a panel of outside 
experts.
    Our department witnesses are the Honorable Gordon England, 
Deputy Secretary, Department of Defense; Admiral Edmund P. 
Giambastiani, Vice Chairman, Joint Chiefs of Staff; and with 
him also is Ryan Henry, Principal Under Secretary of Defense 
for Policy.
    So, gentlemen, thank you for being with us today. And we 
look forward to your remarks.
    Congress created the Quadrennial Defense Review after the 
Berlin Wall fell to connect threats, strategy, force structure, 
and budgets. Over the years, it has helped us to do so to one 
degree or another. And while we haven't always been satisfied 
with the product, the effort forces the department and Congress 
to pause and ask fundamental questions, which is valuable in 
and of itself.
    In fact, we believe the process is so important that the 
committee decided to conduct its own review this year. Many 
members have contributed to the committee defense review over 
the last six months, and we are closing in on completing the 
project. Throughout that process, the department was very 
helpful.
    And I want to thank you, Mr. Secretary, especially for 
being so cooperative, making sure that the briefings, the 
information, the analysis that the Pentagon had that was 
relevant to our process was made available to us. And we 
appreciate that.
    That, of course, leads us to some aspects of the 
Quadrennial Defense Review with which we have a few concerns.
    First, the QDR is resource constrained. In other words, the 
final product has to assume that a certain amount of funding 
will be available to meet our defense needs. Now, for some 
time, members of the committee have been concerned that the 
resource constrained model affects how QDR planners review 
threats and the capabilities required to meet them.
    A resourced constrained approach can lead planners to 
consider only those threats and capabilities for which they 
have adequate resources. Defense planning should be undertaken 
the other way around.
    We need to first identify what we need and then decide how 
and whether we can afford it. At least that way we can be clear 
about the risks of not adequately funding our defense.
    Second, the QDR reaches some contradictory conclusions 
about force structure. It calls for making our armed forces 
more expeditionary than they are now. Yet it concludes 
generally that we possess enough strategic lift today to 
achieve that mission, even though our current lift assets were 
not designed for an expeditionary Army.
    It proposes handing some special operations missions to 
regular Army units, increasing the demands on the force at the 
same time that it shrinks the number of brigade combat teams. 
In other words, the QDR promises to do more with less. The 
armed forces have been doing a lot more with a lot less for a 
decade. It is fair to question the wisdom of a strategy that 
proposes to accelerate that trend.
    Third, the QDR makes some programmatic decisions that seem 
to contradict its strategic findings. For example, it stresses 
the value of and increased demands on deep strike platforms at 
the same time it recommends cutting the operational bomber 
force and making up the difference with aircraft that do not 
yet exist and certainly will not exist for another decade. And, 
of course, we are talking about the proposed cuts in the F-117, 
but more importantly, the B-52H models.
    I am not making these points to be critical. But I think 
that they highlight a larger point. The QDR is very optimistic 
that new technologies and operational concepts will address 
these problems. Yet it is somewhat vague on these technologies 
and concepts. Meanwhile we continue to increase the demands on 
our current force structure, which the QDR will reduce in order 
to free up resources for modernization. Ultimately these two 
trends conflict with one another, a point that the QDR does not 
seem to acknowledge.
    In suggesting that we can move forward without confronting 
that fundamental contradiction, the QDR may lead us to miss the 
forest for the trees. So I think we need to view the QDR and 
the committee's defense review as inputs into the process of 
building our nation's defenses not as a last word.
    Now, let me turn to the gentleman from Texas. And, you 
know, the gentleman from Missouri would be with us today, but 
he has had natural disasters in his district. Some of his 
constituents, in fact, have been killed. And he has been rather 
consumed with that problem. And so, the great gentleman from 
Texas, Mr. Ortiz, is sitting in as the ranking member.
    And the gentleman from Texas is recognized.

STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE FROM TEXAS

    Mr. Ortiz. Thank you, Mr. Chairman. I would like to request 
unanimous consent to submit the statement of my good friend, 
Mr. Skelton into the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 61.]
    Mr. Ortiz. And I would like to take this opportunity to 
welcome the witnesses here with us today.
    Thank you, Mr. Chairman.
    The Chairman. Well, I thank you, Mr. Ortiz.
    And, Mr. Secretary and Admiral Giambastiani and Under 
Secretary Henry, thanks for your continuing contributions.
    And, Mr. Secretary, you have been at the point of the spear 
on lots of tough challenges for our nation. And we walk through 
them sometimes with bumps and bruises but always your ability 
to bring people together and to work with Congress, I think, 
has been a strength for the Department of Defense. And so, I 
know this is a big deal, this QDR. And I know you have got 
Admiral Giambastiani, who is well known for his ability to 
innovate and to think and to analyze. And you have had a lot of 
talented people working this program. So we appreciate the work 
product.
    And, Mr. Secretary, what do you think? The floor is yours, 
sir.

 STATEMENT OF HON. GORDON ENGLAND, DEPUTY SECRETARY OF DEFENSE

    Secretary England. Mr. Chairman, thanks. You are right. 
This is indeed a big deal.
    And, Mr. Ortiz, thank you, sir, and all the members of the 
committee. It is always a delight to be here.
    And it is always a delight and a pleasure to be with 
Admiral Ed Giambastiani and also Mr. Ryan Henry. The three of 
us were very instrumental in this report and activity. And I 
appreciate their terrific contribution.
    Also I will thank you for the great support for our men and 
women in uniform, who are absolutely magnificent in doing the 
work of our nation. And God bless them for what they do every 
day for our freedom and liberty.
    It was a pleasure, Mr. Chairman, for us to support you. And 
I do thank you for your committee defense review efforts. It is 
very important that we approach this as a team if we are to go 
implement change and bring about change in the Department of 
Defense. So I thank you for your initiative and all the hard 
work of this committee and the opportunity for us to work with 
you. And we do look forward to the outcome of your studies and 
to work with you at that time.
    I would like to make just a couple comments about the 
Quadrennial Defense Review. The QDR is a strategic document. 
And it looks out 20 years. Obviously, the further you get in 
time, the less precise it is. So it is probably more precise 7 
and 10 years from now. But we try to go out 20 years in terms 
of looking ahead. So it is strategic. It is not a budget 
document.
    The 2007 budget, Presidential budget submittal--that is 
obviously budget and program oriented. And the QDR is really 
not program oriented. Your comment about being resource 
constrained--I would say it is resource informed. Since it is 
strategic, we did not look at a specific constraint, a budget 
constraint. But obviously we realize that there is just not 
unlimited funds. So we wanted to get a degree of realism 
obviously in our thinking.
    The 2007 budget contains some, what we call, leading edge 
implementations of the QDR. I know there are people saying, 
``Gosh, why didn't--you know, everything isn't implemented in 
2007.'' Actually, nothing was intended to be in the 2008 budget 
because the 2007 budget was being prepared in parallel with the 
Quadrennial Defense Review.
    We took it upon ourselves to incorporate as much as we 
could in the 2007 budget. But the QDR will be implemented going 
forward in 2008, 2009. And by the way, it will take a 
considerable time to implement the QDR. I mean, time is sort of 
the tyranny of this process. Here we are working on the 2008 
budget already. So we are already two years from things that 
are going to be in the 2008 budget, which is why we tried to 
back up in the 2007 budget.
    I also want to comment that this was a very inclusive 
process, the QDR. This is not just the Department of Defense. 
This was the Department of Defense. It was all the agencies of 
the Federal Government. I mean, specifically, state, intel 
communities, Department of Justice, Department of Homeland 
Security. But outside the Federal Government, we had at least 
three defense science board studies. We had think-tanks from 
throughout the area and throughout the private sector.
    We had an independent array team within the Department of 
Defense. And so, while there are a lot of personal views, we, I 
believe, integrated lots of views. Our responsibility was to 
get views and balance them across a spectrum of input and being 
concerned for the total security of the Nation over a long-term 
period, not just for today and not just a specific area, but 
across a total spectrum of threats to America.
    That said, I also wanted to say I believe and we concluded 
in the studies for the Quadrennial Defense Review there is 
likely a great diversity of challenges and more uncertainty 
today than there has been, I would say, at least in my whole 
lifetime. We now have this disbursed networks of terrorists. We 
have states and non-states that can acquire--some have 
acquired--and could use weapons of mass destruction (WMD) to a 
devastating effect.
    We have major and emerging powers that could choose a 
hostile course in the future. And, of course, we have a 
homeland that is vulnerable to all of these threats. And 
therefore, we provide capability to the Nation in terms of 
homeland and particularly, support to the Department of 
Homeland Security. So this is a very challenging time for the 
department.
    Also the QDR is not a static document. I think it was--I am 
not sure how this came about in the Congress, frankly. It was 
an excellent initiative to do this every four years. But the 
fact of the matter is the world is changing very rapidly. And 
every four years is likely probably not the right scenario. So 
our intent is to revisit this and revisit it as we need to and 
as events and circumstances change. So this will be dynamic. 
And it won't be static.
    And I also want to assure the committee that we have 
already started taking action to implement the Quadrennial 
Defense Review. We have 141 actions to be implemented. And we 
have nine major roadmaps, that is, very comprehensive issues 
that will require pretty lengthy schedules and activities. All 
that is being scheduled with milestones and people being 
assigned. So there will be a very comprehensive approach in 
implementing the Quadrennial Defense Review.
    So I appreciate--I do on behalf of the secretary and also 
my associates here today--we appreciate the opportunity to be 
here because we can only make progress in the QDR with your 
support. Otherwise, I mean, if we do not make any changes to 
our budget, that is if we maintain the status quo, then we will 
be stuck, frankly, with the status quo for a long time.
    So this will take the department working with the Congress 
to build a consensus to actually move the vector in terms of a 
different direction and to move in a different direction will 
mean that we will need to stop doing things that are not 
completely necessary as we go forward in the future.
    So we look forward to the discussion. And we look forward 
and appreciate the support of Congress as we go forward in the 
QDR. And so, Mr. Chairman and members of the committee, thank 
you very much.
    And I would like my friend and compatriot here, Admiral 
Giambastiani, to make a few comments. And then we will be ready 
for your questions.
    [The prepared statement of Secretary England can be found 
in the Appendix on page 66.]
    The Chairman. Thank you, Mr. Secretary.
    Admiral.

 STATEMENT OF ADM. EDMUND F. GIAMBASTIANI, JR., VICE CHAIRMAN, 
                     JOINT CHIEFS OF STAFF

    Admiral Giambastiani. Thank you, Chairman Hunter, Mr. 
Ortiz, and members of the committee, for this opportunity to 
testify before you today. And also thank you for your strong 
and dedicated support of our armed forces on a continuing basis 
and also that very important group that is behind them, their 
families.
    I strongly second Secretary England's comments to you on 
the challenges we face and the QDR's attempt to attack these 
challenges and make the hard choices that are required along 
the way. And I look forward to engaging with you on what we 
would like to call this vector for the future of the joint 
force recommended by the QDR that we have just submitted.
    Let me take a moment and give you some context I think 
might help from my perspective. In our QDR discussions, we had 
a very clear idea of our customers as we debated and discussed 
the way ahead. First, of course, the commander in chief, the 
President and through him, the secretary of defense to give 
them options and choices for what we refer to continuously 
throughout the document as an uncertain world and second, of 
course, the combatant commanders who execute any assigned 
missions to give them the right capabilities to be successful 
in any plausible scenarios that we could think of.
    I come to this task working with Secretary England and the 
rest of our department here after almost three years as a 
combatant commander. I found this experience valuable, and it 
gave me what I consider to be invaluable perspectives in 
supporting our other combatant commanders around the world.
    I returned just last month from another troop visit to our 
folks in Iraq, Afghanistan, and Kuwait. I know many of you have 
completed or will be going on similar visits once again here 
shortly. This visit once again reconfirmed my faith that by and 
large the vector for the future we set in the QDR, I believe, 
is broadly correct. I bring back from the troops their thanks 
for your support in the past and their determination to 
complete the mission at hand.
    Our work in the QDR did not start from scratch or proceed 
in a vacuum. It builds on the 2001 QDR submitted back in 
September of 2001. It seeks to provide the capabilities 
required to successfully execute the 2005 national defense 
strategy. It is informed by extensive lessons learned in more 
than four years of war against a determined, ruthless and 
adaptable enemy. And it guided part, as Secretary England 
mentioned, our 2007 President's budget.
    I would like to reinforce two points, if I may, before we 
take your questions. First, in this QDR, we refined our force 
planning construct to help us understand, given the mix of 
capabilities we desire, how much of these capabilities we need 
and how to apportion these capabilities in the total force. 
This refined force planning construct retains major elements of 
QDR 2001, and it is based equally on three major capabilities: 
homeland defense, the war on terror, irregular warfare, and not 
surprisingly and finally, conventional warfare.
    But during all of these, it accounts for both steady state 
and surge operations. But for the first time, steady state 
operations are identified as key capacity drivers across the 
entire force.
    The second point I would like to make is that these desired 
capabilities and capacities will receive a considerable down 
payment in the President's budget submitted this first time 
alongside the QDR. While there is a whole list of initiatives I 
could talk about and I could describe and they aim to provide 
this shift of weight, this vector that I talked about earlier 
and that the secretary has mentioned to make us responsible and 
flexible, I would like to defer those for your questions.
    Again, I thank the committee for this opportunity to speak 
with you today and for your continued strong support. We look 
forward to your questions, sir.
    The Chairman. Well, Admiral, thank you. And thank you for 
your career and service to this country.
    And, Mr. Secretary, thank you for being with us today.
    Let me go to just one point. And I will reserve other 
questions until the end of the event here today. Deep strike--
the QDR evidences interest and focuses on the importance of the 
Nation maintaining deep strike capability. That is the ability 
in shorthand to reach long distances around the world with 
explosive on target.
    Platforms that manifest that capability today are aging, 
mainly comprised of bomber capability, a small fleet of B-2s, a 
reduced fleet now of B-1s following Air Force early retirements 
of a good piece of the B-1 force. And, of course, at the 
remaining core of that force is an ancient B-52Hs. I think the 
last one rolled off the assembly line in 1962.
    If you look at that force, it is smaller than it has ever 
been. And yet the recommendations in the budget you have got 
before us is to cut that force down by another fairly 
substantial percentage. And as I recall, the QDR posits that we 
should be developing around 2018 a new deep strike capability. 
What do you think?
    Don't you think we are counting on a fairly long period of 
having a benign environment that doesn't require that forceful 
dimension of America's war fighting capability for a fairly 
substantial period of time? And don't you think there is a 
fairly substantial risk in pulling that bomber force down with 
the outlook for a future capability so far out? What do you 
think, Mr. Secretary?
    Secretary England. If I can just make a comment, Mr. 
Chairman, and then I will turn it over to the admiral. I think 
in terms of the capability because of a lot of advances in 
technology, today one of those pretty aged but very, very 
capable B-52s can now take out basically 90 targets, every 
airplane on every sortie because of precision weaponry and the 
targeting and the capability we have. So if you look at the 
number of targets served, it is, I expect, vastly higher now 
than it was in past years just because of the benefit of 
technology.
    So we are recommending that we come down in some of the 
airplanes that are basically pretty expensive and high 
maintenance and limited utility to us. And then we will be 
investing. And we do have money in the Future Years Defense 
Plan (FYDP) for the beginning of a new deep strike capability. 
So this is a transition. But, in my judgment, it does not leave 
us with a void or high risk because of the vastly improved 
capability of the platforms that we have today.
    And I will ask the admiral to make a comment.
    Admiral Giambastiani. Chairman, first of all, you have a 
lot of deep strike advocates across the department. And you 
have a very strong group of leaders who support this 
capability. I will talk about myself individually for just a 
second. Having probably five years ago--I think I am the only 
Navy admiral who has flown in B-2 sortie, for example, for two-
and-a-half hours. And what I would say to you is that first of 
all, we looked very carefully in this area. The continued 
upgrades of our B-2 fleet are exceptionally important.
    Number two, the upgrades of our B-52 fleet are 
exceptionally important to keep each one of those that we keep 
online up to date, fully modernized and fully capable. Now, 
there is a series of proposals that will probably come forward 
in 2008, which will make this long-range strike situation, I 
think, a little more clear with regard to missions and the 
rest. I would prefer not to get into those right now because we 
haven't finalized them. But we are looking very carefully at 
them.
    But let me say the following. In the B-52 fleet, getting in 
the specifics, there is a group of attritioned aircraft, for 
example. There is a sizeable number. We have got one B-52 that 
has been turned over to National Aeronautics and Space 
Administration (NASA). We have got 18 in the attrition reserve.
    So when you look at those, we feel that those always have 
been aircraft that we did not need to keep fully up to speed 
and online, even though we have done that. And what we would 
like to do is invest the money--the Air Force would like to 
invest the money that they can get from some of those aircraft 
into upgrading and accelerating this new long range strike 
aircraft, manned or unmanned, here in the future.
    In addition, the precision weaponry that is carried onboard 
these is exceptionally important. And with a whole package of 
long range strike, including, for example, conventional Trident 
and the rest, we feel that we are actually going to increase 
our capability in the short-term and over the long-term. So 
that is the reason why we are very supportive of this movement.
    Because, you know, the Air Force--I think they advertised 
that they wanted to come out with a new long range strike 
aircraft in 2037. It is hard for me to envision that date way 
out there now. So 2018 may look like a long time away.
    But I have to tell you I did a study once when I was a Navy 
captain. And it was to take a look at the national security 
environment out to 2010. And that was in 1990. And I thought 
that date would never arrive. And the last time I looked in the 
mirror, it was close at hand.
    That is all I have, sir.
    The Chairman. Okay. Thank you, Admiral.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    My question is going to be--and maybe you can try to 
respond, all three of you. But how do you respond to QDR 
critics who have argued that the QDR gets the rhetoric of 
irregular warfare correct but then fails to cancel any of the 
major acquisition programs that began during the Cold War? Is 
that something that you were able to work through, these old 
programs that began during the Cold War? And how do we either 
bring them in to this new study or take them out?
    Secretary England. Mr. Ortiz, if I could make a few 
comments or perhaps Mr. Henry could comment. First of all, the 
QDR was not to try to cancel programs. It was a strategic 
document going forward.
    And then based on that strategic document, we started 
making changes that we felt we could in the 2007 budget. So 
first of all, you have not seen the implications of the QDR yet 
in the budget because the QDR, again, is a strategic document. 
We did some things in 2007, but it will unfold. And we may end 
up needing to do that, although we are not looking just to 
cancel programs.
    That said, we have made some recommendations in the budget. 
And for example, tomorrow we will have a hearing on the joint 
strike fighter because we have recommended only one engine 
developer and not two. Because of the strategic lift, we have 
said that we should, you know, stop the C-17 program at the end 
of its current production, et cetera.
    So there are a number of changes in the document. There is 
also, I would tell you, a lot of money sort of below the water 
line, money that has moved around in terms of emphasis to meet 
the intent of the QDR. So the measure should not be killing 
programs. The measure should be how are we positioning our 
military forces recognizing there is still conventional--none 
of this is 20 years.
    So we are shifting a lot of money to the irregular warfare. 
But we also deter threats. And so, we do need other 
capabilities. This is a broad spectrum capability and not 
focused on one particular threat. This is a hedge against 
surprise and uncertainty in a world we are in. And so, it is 
balanced. And that is what we tried to do across the QDR in 
terms of understanding threats and putting a strategic 
framework going forward.
    And, Ryan, comment?
    Admiral Giambastiani. Deputy, if I could, let me add a 
couple of comments to the secretary's.
    Secretary England. Okay.
    Admiral Giambastiani. First of all, one of the main 
assumptions of the Quadrennial Defense Review, as the secretary 
pointed out, was uncertainty. And there is considerable 
uncertainty more in the future than we think we have seen at 
least in the last 15 years. And it continues to be a more and 
more uncertain world.
    As we look at what movement we have to make within the 
programs, it depends on what one's view of major is. I suspect 
to a taxpayer, $2 billion--you know better than I do--is a 
significant amount of money. For example, the deputy mentioned 
this alternative engine for the joint strike fighter.
    But let me just tell you that there is a substantial amount 
in tens of billions of dollars in the President's budget that 
moved around inside it to plus up certain capabilities. In 
addition, what you have seen is is that we have terminated the 
aerial common sensor, for example, to give you a few examples. 
I am going to give you a couple more here. And we have said if 
we go forward, we need to make it a joint program.
    We have restructured the joint tactical radio system. We 
have restructured the advanced seal delivery submarine program. 
It was supposed to be three. We have said we only want to go to 
one because we have to look at whether we need to restructure 
this in a very different way.
    We have canceled the B-52 jammer program. We have canceled 
the Air Force portion for the joint unmanned airborne 
surveillance system. The E-10 and the airborne laser will only 
be research and development (R&D) platforms, for example. We 
are going to accelerate and conduct early retirement of the U-2 
and F-117s. So I could go on and on. There is a number of other 
ones here. But I think it is a misnomer. And personally I think 
it is the wrong metric if people think that every four years we 
are going to come up with massive new programs and massive cuts 
at a Quadrennial Defense Review time.
    Our view is is that if you are changing and modernizing on 
a day to day basis and you have this culture of change and 
learning embedded in an organization that you will be doing 
this on every budget every day that you work. So that is why we 
don't expect to see these major changes.
    Ryan.
    Mr. Henry. Well, other than, as the vice chairman 
mentioned, there are a number of other programs that were 
restructured, caps, production terminated. Beyond that, I think 
it gets to the point the chairman raised at the very beginning. 
If you approach this from a strictly resource constrained 
approach, then you are going to be looking to cancel programs. 
But if you do it from what are the capabilities you need and a 
capabilities based approach and then you are able to shift 
below the level of the major programs, you are going to be able 
to get the freedom of action that we have had to make this 
major shift in investment toward irregular warfare.
    I would say the other reason that we were successful in 
being able to do this is rather than pushing the services in a 
direction they didn't want to go, it was an issue of the 
services understanding that we needed to make this shift toward 
irregular warfare and then reaching deep down in their programs 
and them having a much clearer understanding of where the 
savings could be had below the major program level to be able 
to come up with the funding to be able to fund the irregular 
capabilities.
    Mr. Ortiz. Just one last question now. What kind of 
reception have the other services and agencies given to the DOD 
recommendations? Are they all for it? Did they accept them? I 
know you get a lot of input and a lot of recommendations. How 
do they accept the recommendations by DOD?
    Secretary England. Mr. Ortiz, this was an, I will say, 
extraordinarily open and collaborative process. So throughout 
the QDR we had all of the commanders. We had all the services. 
We had all the under secretaries. We periodically reviewed this 
with the secretary of defense and with all the combatant 
commanders. So this was very open, very inclusive.
    Risk was weighed in every decision that we made. And my 
judgment is that we have consensus effectively across the board 
on the QDR. I mean, maybe there is somebody that objects to one 
or two things. But I would tell you certainly the main--there 
is unanimity of agreement across the Department of Defense, 
military and civilian, service chiefs, combatant commanders, 
certainly the secretary and myself.
    So this was, again, a very open and collaborative process. 
And I believe we did reach a conclusion that that is the right 
direction for the Navy and for the nation. And we do have 
concurrence on this direction.
    Admiral Giambastiani. I might add, Mr. Ortiz, that the 
combatant commanders, in particular, as one of those primary 
customers of executing missions with the forces assigned to 
them are strongly onboard with this vector and strongly 
supportive of this Quadrennial Defense Review because of the 
capabilities that they think they need to conduct the types of 
war plans, contingency plans and day to day operations that 
they get assigned.
    Mr. Henry. I would just add to that, sir, that it goes 
beyond that within the services, within the U.S. Government, as 
the secretary and the vice chairman mentioned, but also the 
international community, our alliance partners and our 
coalition partners. We had them as part of the process taking 
input.
    Some of our closest partners were actually members of the 
QDR process with it every step of the way. And now that it has 
been published and we have been out there for a month, we are 
out doing consultations. And each of our partners welcomes 
this, thinks it is a shift in the right direction and are 
interested in how they can collaborate with us to further 
develop these capabilities.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Hefley [presiding]. Thank you very much.
    In the QDR, did you deal with the issue of the use of the 
National Guard? We have taken this up over and over and over in 
this committee. And it is the feeling of some on this committee 
at least that we are not going to be able to sustain the way we 
use the guard now. Traditionally people go into the National 
Guard with the idea that when there is an emergency, emergency 
in your state--in my state, you have wild fires or things like 
that. Why, they are pressed into service--or floods--or in the 
Nation.
    And I know in the second World War we called up guard 
units, and they were there for the rest of the duration. And we 
called up guard units in the Korean War, and they were there 
for the duration and perhaps Vietnam as well. But I don't think 
traditionally we have had the guard rotated to active duty on a 
regular rotational schedule, no matter how long that schedule 
is before they are rotated.
    And there is a feeling of some of us that you simply are 
not going to be able to sustain the National Guard if you do 
that. You are not going to be able to because most of our 
National Guard members today are married. They have families. 
The families don't want them gone every 6 or 12 or 18 months.
    And the employers are not going to go along with the idea 
that their guard people are going to be gone every couple of 
years or so. So did you deal with that issue as to whether or 
not we can sustain using the guard the way we are using them 
now?
    Admiral Giambastiani. Sir, we looked at this extensively. I 
can tell you just a significant number of discussions on this. 
We do, as I mentioned in my opening statement, look at both 
surge and a steady state operations. And we do this in some 
pretty extensive analysis to see how we can deal with the 
active component and the reserve component, of which I will 
include not only the National Guard but the reserves.
    And as a result of this very extensive look over a long 
period of time of this analysis we have doing here for about 
three years, that is part of the reason why the Army came 
forward and looked at increasing the number of active component 
brigade combat teams and adjusting the way the National Guard 
and the reserves were structured for both combat brigade teams 
on the National Guard side and then brigades total, combat 
service and combat service support, on both National Guard and 
the reserve side.
    And the thought process was as follows. Now, the problem is 
we were out fighting a war. And so, as you know better than 
anyone here in Congress, we had up to 40 percent of, for 
example, the forces deployed in Operation Iraqi Freedom and 
Enduring Freedom were National Guard at one time, about a year 
ago. Today it is about 19.5 percent, somewhere in there. It has 
dropped considerably.
    We have had to restructure the guard and reserve to make it 
not only a strategic reserve, but an operational, but not to 
expect, if you will, that we were going to have rotations every 
year or two years. That is not the long-term intent here for 
the guard and reserve.
    The intent was to produce more active component brigades 
and brigade combat teams so that we can rotate them frequently 
in what we call a one in three optimal rotation. And our target 
for the National Guard and the reserve is about one in six for 
those entire units. So this would allow us, in fact, to not 
have more than a maximum of one in six when we federalize 
National Guard and actually send them out to work these types 
of missions.
    So we have kept the number of brigades within the National 
Guard to about 106. We have adjusted, as you know, the number 
of brigade combat teams and support teams and combat service 
support so that that mix will be useable for contingencies, 
natural disasters and others here in the United States, but at 
the same time be able to assist in being an operational and 
strategic reserve overseas. I hope that answers your question.
    Mr. Hefley. Well, do you still plan to rotate them on some 
kind of a schedule into active duty?
    Admiral Giambastiani. From the brigade combat side, if we 
have a need for sustained operations overseas, the answer is 
yes, we should have that capability. Do we expect to do it on a 
routine basis? The answer is no, unless we are in the middle of 
a war. And what we want to do is have 42 active combat 
brigades. If you do a 1 in 3 rotation, that allows us to 
sustain 14 brigades deployed out of the active force.
    From the 28 brigade combat teams, if we rotate them 1 in 6, 
this allows us to have about 4.5 of them rotated once every 6, 
if you will, 1 out of 6 years. So this essentially allows us to 
have 18 or 19 total brigades if we need a sustained force. But 
I don't think anyone--we know we are in a long war. But keeping 
this level of troops deployed constantly out into the future, 
we don't see that day in and day out. Can we do it? Yes. But do 
we want to? The answer is no.
    Mr. Hefley. Thank you very much.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank our panelists for being with us.
    Admiral, going back to what you just said, we see this as a 
long war. I think regardless of how the people in this room 
feel about it, it is fair to say that there are some hidden 
costs to the war in Iraq. I think the equipment that has been 
left behind by the different guard and reserve units is a 
hidden cost.
    I know in the days immediately after the hurricane as I am 
making frantic phone calls asking for tents, generators, and 
meals ready to eat (MRE) it certainly strained a system that 
was already strained because of the war in Iraq. The use of the 
guard and reserve--again, at about a year ago right now, I 
think 40 percent of the troops were guardsmen.
    It is probably safe to say that if this continues for a 
while, we will see another ramp up to have a substantial 
portion of the troops being guardsmen, if not next year, then 
the year after that. So to give me an idea of how this whole 
puzzle comes together, in your QDR, when did you predict an end 
to sizeable American involvement in Iraq? Because I think if 
you are going to be looking out into the future, that certainly 
has got to be the biggest tent in the pole.
    Admiral Giambastiani. Mr. Taylor, we did not look at when 
Iraq or Afghanistan would end. What we did look at is how to 
deal with sustained operations over a long period of time and 
also how to deal with surge operations. And what I was just 
describing a moment ago was the level of sustained operations 
from an Army perspective--didn't include Marine Corps, for 
example--that we could handle once we finished modularizing the 
Army, finishing the brigade combat team builds and fill-outs 
and the manning.
    So we didn't go in and say, ``Now, in our QDR 
deliberations, Operation Iraqi Freedom support at this level 
must end at this date.'' But we did look at generic situations 
like it and looked at how we could sustain and surge as 
required if we have another contingency, a natural disaster and 
the rest.
    So that is why once we have completed, if you will, the 
build of these brigades, the rest of this transformation 
package that we have put together with modularizing it that we 
can sustain levels of 18 and 19 Army brigades. Those are the 
kind of things we looked at.
    Mr. Taylor. Admiral, with all due respect, proponents say 
this is costing us $4 billion. Some of the skeptics think it is 
anywhere from $6 billion to $7 billion a month. So either way, 
you are talking about the difference between $48 billion a year 
to $72 billion a year out of a $400 billion budget. How can you 
just ignore that?
    The second question will be does your QDR envision or set a 
timeline for another round of base realignment and closure 
(BRAC)?
    Admiral Giambastiani. I am sorry, the second piece?
    Mr. Taylor. The second piece would be, since I know my time 
is running out, does your QDR envision or set a timeline for 
another round of base closures?
    Admiral Giambastiani. Let me answer the first part of that. 
I know the deputy will want to answer the second part.
    Mr. Taylor. Sure.
    Admiral Giambastiani. In our force planning construct, that 
is the part of how we plan for all types of contingencies. Now, 
we have what some people have referred to as the 1421 strategy 
in this force planning construct. Without going through a 
lengthy explanation of that, when we look at two major 
operations going on, could one of them be a long-term situation 
like we currently see in Afghanistan in Iraq. The answer is 
that would be part of one of those two.
    But my comment to you is now let us get beyond the QDR. If 
you want to talk about the Iraqi situation, we would look at it 
and say our job is to build Iraqi security forces so we can 
draw down U.S. forces. That is the long-term answer here. That 
is the short-term answer, which is why we are working so hard 
to build the Iraqi Army and then the Iraqi Police force because 
we want to transition this over to them so we don't have to be 
into this for years and years. That is really the answer.
    But the QDR did not look at Iraq and say we are going to be 
in this for five years. We looked at generic situations.
    Mr. Taylor. You know, that $48 billion to $84 billion, now 
that I think of it, did you just kind of ignore it?
    Admiral Giambastiani. Sir, we don't expect--I don't think 
anyone expects that we are going to be in a war and getting the 
very large supplementals that we are getting forever. There is 
nobody who expects in a planning scenario for that to happen.
    Secretary England. Mr. Taylor, again, if I could just 
comment. First, I don't know of any hidden costs. I mean, the 
comment about there must be a lot of hidden costs--I just----
    Mr. Taylor. Mr. Secretary, if I may. With all due respect 
to you--and I do respect you--there is no one that I have 
spoken with in the past two to three years who doesn't off the 
record tell me that there are hidden costs, whether it is in 
delayed maintenance, delayed acquisition, equipment left behind 
and not replaced. My guard unit left every stick of every 
engineering equipment in Iraq, came home, had to deal with the 
hurricane with only 60 percent of it replaced.
    Secretary England. Mr. Taylor, let me just say this, I 
mean, so you know. We go out to the department, every service, 
and we ask them for every single cost associated with the war. 
And that includes maintenance of equipment that is being worn 
because it is in the war. It is replacement of damaged 
equipment. It is replacing of equipment that is literally left 
by the roadside, maybe worn out. I mean, every cost we know of 
we have in the supplemental.
    I mean, I can tell you--and I would testify under oath--
that I know of no cost that is not included in our 
supplemental, recognizing that there will be costs in the 
future we don't know about today because the operation is still 
ongoing and recognizing that at the end, there will likely be 
some costs just because maybe there is some equipment we leave 
behind that is not scheduled today. But I can tell you today 
every cost we know of is accounted for in the supplemental.
    The other question you asked, I believe, did we anticipate 
another BRAC during the period of the QDR. And we did not 
anticipate another BRAC. We did not include in there some wedge 
of savings example for BRAC. So the answer is no, sir, we did 
not anticipate another BRAC.
    Mr. Taylor. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. I thank the gentleman.
    The gentleman from Maryland, Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Mr. Secretary, it is really good to see you again. Welcome.
    Secretary England. Thank you.
    Mr. Bartlett. I have in front of me two documents. One is 
clearly historic. The second one, I think, may be about as 
historic.
    The truly historic one is a copy of a speech given by M. 
King Hubbert 50 years ago, March 8th in San Antonio, Texas, at 
the American Petroleum Institute Plaza Hotel. And in that 
speech, he said that the United States--this was 1956. He said 
the United States would peak in oil production in 1970. We did.
    A little later, he predicted that the world would be 
peaking in oil production about now. He was right about the 
United States. It looks like he may have been right about the 
world.
    The second document I have is an Army document. It is dated 
September 2005, but I think that it is just now become public. 
It is the U.S. Army Corps of Engineers Construction Engineering 
Research Laboratory. And I want to read just a few sentences 
from this and then ask you a question. The question is this so 
that you can be considering it. To what extent does the QDR 
reflect the concerns of this document? Let me read.
    Energy implications for Army installations--and that could 
have read Air Force, Navy, Marines if it had been done for 
them. ``The days of inexpensive, convenient, abundant energy 
sources are quickly drawing to a close. Domestic natural gas 
production peaked in 1973. The proved domestic reserve lifetime 
for natural gas at current consumption rates is about 8.4 
years.
    ``The proved world reserve lifetime for natural gas is 
about 40 years, but will follow a traditional rise to a peak 
and then a rapid decline. Domestic oil production peaked in 
1970 and continues to decline. Proved domestic reserve lifetime 
for oil is about 3.4 years.''
    I am not reading from some environmental quack literature 
here. I am reading from the Army.
    ``World oil production is at or near its peak. And current 
world demand exceeds the supply. Saudi Arabia is considered the 
bellweather nation for oil production and has not increased 
production since April 2003. After peak production supply no 
longer meets demand, prices and competition increase. World 
crude reserves like tranquil oil is about 41 years, most of 
this at a declining availability.''
    ``Our current throw-away nuclear cycle will consume the 
world reserve of low-cost uranium in about 20 years. Unless we 
dramatically change our consumption practices, the Earth's 
finite resources of petroleum and natural gas will become 
depleted in this century. We must act now to develop the 
technology and infrastructure necessary to transition to other 
energy sources. Policy changes, leap ahead technology 
breakthroughs, cultural changes, and significant investment is 
required for this new energy future. Time is essential to enact 
these changes.''
    Again, my question, sir, to what extent did the QDR--
because if you are looking ahead 20 years, sir, this is going 
to impact what we do. To what extent does the QDR reflect these 
concerns?
    Secretary England. Mr. Bartlett, I would say I don't 
believe it does directly address those concerns. I will tell 
you, however, that toward the end of the QDR this did become an 
issue for all of us in the department, including the secretary. 
And we put out guidance to the department each year in terms of 
specific guidance. And that guidance, which will come out now 
in about a week, one aspect of that guidance does deal with the 
energy situation and what steps can we take both now and in the 
future regarding energy.
    Now, obviously in some cases wise decisions in the past for 
our nuclear carriers and submarines obviously have mitigated 
that somewhat. But it is an issue to be addressed. But I will 
tell you we are just now really starting to address that issue. 
And it is indeed a very good point.
    It is a subject that we have had considerable discussion in 
the department. But I will tell you we do not have a 
comprehensive answer to that problem long-term.
    Mr. Bartlett. Sir, I think that business as usual will not 
address this concern. I believe this will be the challenge of 
the future, relatively short-term future. I believe that unless 
we have a program that is pretty much like a combination of 
putting a man on the moon and the Manhattan Project that we 
face a very bumpy road ahead. Thank you for your concern for 
this issue.
    Thank you, Mr. Chairman.
    Secretary England. Thank you, Mr. Bartlett.
    The Chairman. Thank the gentleman.
    The gentleman from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Mr. Secretary, it is a little disconcerting to listen to 
the answer that was given to Mr. Taylor in the context of what 
is going on today because it says Quadrennial Review. 
Presumably you are going over what has been with an idea of 
where you are going in the future. And if you have ongoing 
operations that are continually funded out of supplemental 
budgets, at least to this point, it is a fair point in turn to 
ask you how does that relate to what you want to do and what 
you are projecting as to what needs are and how you are going 
to fund those needs in the future.
    I don't think you can ask us in this committee to pay 
attention to the review in that light if we can't take into 
account the funding, both now and what might be anticipated if 
we follow through on some of the recommendations here. To wit, 
if you go to page 67--and with your permission, I would like to 
pass out to you the reference I am making.
    I realize you are just on the job, but you were familiar 
from your previous work with my requests and discussions over 
the years about capital budgeting. You may recall that in last 
year's authorization, we put in section 1004, reports and 
feasibility and desirability of capital budgeting for major 
defense acquisition programs. And that is the section I am 
passing out to you folks now.
    The report that required this is not later than July 1, 
2006, this upcoming July. If you go to page 67 of the report 
under your building capabilities for strategic choices, I am 
quoting now, ``To manage the budget allocation process with 
accountability and acquisition reform study initiated by the 
deputy secretary of defense,'' which is what you are now--I am 
quite content to have the Quadrennial Defense Review say it was 
initiated by the deputy secretary rather than from the 
Congress.
    I am pleased that the deputy secretary at the time thought 
it was worth doing--``recommend the department work with 
Congress to establish a capital accounts for major acquisition 
program.'' Can you tell me today two things? Will the report be 
ready by July 1st? And is this what the page 67 commentary is 
referring to?
    Secretary England. Mr. Abercrombie, the effort of the 
capital accounts that is in that document was started by me 
last July. We have turned on a special study we call the 
Defense Acquisition and Program Authorization (DAPA) study 
dealing with acquisition reform.
    Mr. Abercrombie. Yes.
    Secretary England. Plus we had one in-house. Plus there was 
another study accomplished by one of the firms here, think-
tanks here in town.
    Mr. Abercrombie. And you and I have had this in-depth 
discussion on this.
    Secretary England. In the past, yes, sir. And so, it turns 
out a number of these have all come together in terms of having 
a capital account. So in the QDR, in response to past issues 
that you are familiar with, particularly in the acquisition 
arena, we concluded that we should indeed try to implement a 
capital account within the Department of Defense as a way of 
better managing these large acquisition programs.
    Mr. Abercrombie. Well, if you look at--excuse me. It is 
just our time is so short. I don't mean to cut you off.
    So the answer is that you are intending to follow through 
on the four-point report request, you know, potential long-term 
effect on defense industrial base? You know, I wrote these four 
things--I shouldn't say I did it. The chairman and I worked on 
this together. It was a bipartisan effort, I can assure you. We 
worked on those four points very, very assiduously with the 
Quadrennial Review in mind.
    Secretary England. Look, I can just tell you we are in 
concurrence. I mean, I violently agree with you on this 
subject.
    Mr. Abercrombie. Okay. So we can be ready July 1st?
    Secretary England. Let me say by definition we will. I 
didn't know until today, frankly, you had this requirement. I 
was really concentrating more on the QDR. I am pleased that you 
also have a requirement. I will go back and check the schedule. 
But if this is the law, we will comply with the law obviously 
and have a response to you.
    Mr. Abercrombie. Okay. I appreciate that.
    Secretary England. So we will definitely--and just one 
other comment. If it looks like it is going to take us longer, 
obviously----
    Mr. Abercrombie. No, I realize you probably won't have 
anything definitive on July 1st. But if you set back with 
section 1004, I think you will find a very, very succinct yet 
comprehensive outline, which probably covers virtually all of 
the initiatives that you just spoke of. And if we can 
synthesize this and put it together--I don't know if we can do 
it for the 2007 budget, but I think we can take giant strides 
toward dealing with some of the funding issues that were 
inherent in Mr. Taylor's question.
    Secretary England. Looked terrific. And I appreciate your 
cooperation. We will definitely work with you on this. This is 
high on our agenda of things we want to accomplish this year. 
So we will definitely get back with you, sir.
    [The information referred to can be found in the Appendix 
beginning on page 103.]
    Mr. Abercrombie. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, who has had now some three 
million acres consumed by a forest fire in his district. We 
appreciate the gentleman being here with us to work these 
issues today. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. I don't think it 
is a forest fire in my part of Texas, but it is certainly grass 
fires that are of a scale that is incomprehensible nearly.
    Gentlemen, I appreciate you being here. I think the most 
important sentence in the QDR is on page one where it says the 
department must adopt a model of continuous change and 
reassessment if it is to defeat highly-adapted adversaries.
    Now, Admiral Giambastiani has already said today there is 
more uncertainty than any time in the last 15 years. And you 
can read that one of two ways. One way is that this is already 
out of date because the world changes so fast. The other way 
you can look at it is you know it is going to be out of date, 
so what you have got to do is make sure that the organization 
is flexible, adaptable and can meet whatever is around the 
corner, which you can't possibly predict.
    But I am not sure I see that emphasis in this QDR. I mean, 
I read the pages starting about page 60 that talk about how we 
are going to have a culture of innovation, how you are going to 
use metrics to make sure you are going to get there and so 
forth. But what concerns me is a couple of years ago we had the 
department come before this committee, make a major emphasis 
that a new personnel system, both for the civilian and the 
military, was going to be essential to being more flexible and 
adaptable, partly because we watered it down, partly because 
the courts have slowed it down, but partly because the 
department hadn't been pushing it. That stuff is not moving as 
fast as it seemed to be in the testimony two and three years 
ago.
    So I guess what I would like for you to address is the 
sense of urgency you feel in creating a culture of change that 
is embedded in the organization, which is roughly a quote for 
what you said today.
    Mr. Thornberry, if I could answer that because a lot of 
that initiative, frankly, was mine in terms of what I call the 
other side of the coin. That is one side of the coin is the 
strategic direction for the U.S. military. But the other side 
of the coin are the underlying processes and structures and 
methodology and management structures that allow you to be 
flexible, adaptable and agile on the military side. And you 
can't do one without the other, frankly.
    And recognizing that, there is a major emphasis as part of 
the QDR to look at the structures, processes within the 
Department of Defense. And so, we have laid out road maps. And 
we will have milestones and metrics and measures as we move 
along that.
    I need to tell you, however, this is an extraordinarily 
complex organization. I mean, we are $.5 trillion a year 
enterprise that conducts warfare. And so, it is extraordinarily 
complex. The personnel system, the National Security Personnel 
System (NSPS), has now been slowed by the courts. Although 
within the next month or two, we will implement it for our 
first tranche of non-union employees. But that is for 800,000 
employees. I mean, this is probably the largest redesign of the 
civilian personnel system anywhere in the world at any time, 
frankly.
    And so, it is important that we do it right and we do it 
thoughtfully and we do experimentation, et cetera. But I can 
tell you there is a genuine sense of urgency. And our objective 
is to have in place within two years all the initiatives, or at 
least everything reasonable in that QDR that we can get in 
place, so that during our tenure we can actually incorporate 
this and have a period of operation, you know, before this 
Administration and all of us come to an end, frankly.
    So we do have our own built-in schedule. Also keep in mind, 
this is ``a regulated enterprise'' we have. And so, we don't 
have total freedom of action in this regard. But I will tell 
you at our end, there is a great sense of urgency. And we are 
anxious to work with the Congress. We are recommending about 20 
legislative changes. We will, to the Congress, this year as a 
consequence of the QDR in areas that provide flexibility and 
adaptability, you know, to do things better in terms of modern 
business practices, et cetera. So you will find us 
extraordinarily cooperative and responsive in this regard. And 
I just give you my assurance that this is a major effort of the 
QDR.
    Admiral Giambastiani. If I might just follow, Congressman 
Thornberry. I think from the perspective of how to embed this 
culture on a day to day basis into organizations, one of the 
ways is to self-critique your organization. And we have 
emphasized to a very great degree, I think as you know, in our 
previous discussions, lessons learned and our analytic ability 
to take a look at ourselves, analyze, sit down and look at 
where we are wrong and where we need to adapt and change. And 
we have embedded this in, this self-critiquing in, extensively.
    We have also, in addition to some of these operational 
lessons learned organizations we have created, a joint forces 
command and others, we have now created a permanent lessons 
learned effort inside the Pentagon to make sure we are looking 
at ourselves inside the building, for example, just as we look 
at outside the building. And I think that is a key component 
and an important piece.
    Last, I would say this support for experimentation and an 
ability to test and not be afraid of failure--that is something 
that has to be pervasive across the department and understood 
at all levels. Those are all important components of this 
learning and adaptive culture.
    The Chairman. Thank the gentleman.
    The gentlelady from San Diego, Ms. Davis.
    Ms. Davis of California. Thank you very much.
    Well, Mr. Secretary, Admiral, it is good to have you with 
us. Thank you very much for your exceptional service.
    Secretary England. Thank you.
    Ms. Davis of California. I wanted to turn up to a 
particular issue that the committee defense review dealt with. 
And that is the one of interagency coordination. And I know in 
the QDR you certainly do address that. I think you also 
recommend that there may be a national security planning 
guidance to direct the development of military and non-military 
plans and capabilities.
    And some have even suggested having a national security 
budget. And I wonder if you could comment on that because one 
of the difficulties that we see with that, of course, is you 
might be talking about culture and the development of 
capabilities, capacities within DOD. But in order for you to be 
successful, other agencies also have to be working with you.
    And we know in Iraq that that is not what happens. And so, 
how can you help us to understand who should lead that effort, 
what role should DOD play, what role should other agencies 
play? And I think more particularly we know that we also have 
to look at ourselves and understand the extent to which our own 
budgeting sometimes gets in the way of that kind of 
coordination. So could you please address that?
    Mr. Henry. Yes, ma'am. I will go ahead and take that, if I 
might. As you are probably aware, we use a strategic planning 
guidance. And we recommended in the QDR that the national 
security community within the interagency might also 
investigate having a national security planning guidance to 
guide them. And we use that to couple in our strategy and with 
our plans and programs and to be able to bring those together. 
We think that that would be a good activity to go across the 
U.S. Government.
    The role we would play would be as a contributing agency, 
as would other parts of the national security community. And we 
would envision that that was probably something that would be 
coordinated in the interagency process, which is normally led 
by the National Security Council. That is at the implementation 
phase.
    But we have also made some recommendations on how at the 
foundation phase that we might do things. So there is a 
recommendation in there to look at our national defense 
university and what can we do to broaden that to a national 
security university. So as we catch people in the formative 
stages of their career that we can get to this interagency 
mindset.
    There is also a recommendation to follow-up on the benefit 
that we have gotten out of Goldwater-Nichols in pushing us 
toward jointness. And a key attribute of that is what is known 
as the joint duty officer where a military officer in order to 
reach flag rank has to have a substantive tour in a joint 
billet. And we think that something similar within the national 
security community for someone to move to the senior executive 
service that we might consider that they would have a tour 
outside of their parent agency or some sort of formative 
experience like that.
    So there is a number of elements in the QDR that we think 
that would be helpful. We are having discussions with other 
agencies at the State Department right now who see likewise 
that we do and trying to come forward with collaborative 
initiatives in the interagency.
    Ms. Davis of California. What do you think will be the 
biggest obstacle to trying to move forward?
    Admiral Giambastiani. If I could address this for just a 
moment. Congress 20 years ago this year passed Goldwater-
Nichols. We have come a huge way, tremendous resistance inside 
the Department of Defense at both the civilian and military 
levels, resistance to change for jointness. And Congress forced 
this on it. I like to say it is one of the two most significant 
events in my career, was the advent of Goldwater-Nichols.
    If you look at this and look, for example--and I am no 
expert on Congress. But I look at your committee structures. 
You don't have any committees that generally look across the 
interagency. You are stovepiped like we were as services. And 
one might ask what a Goldwater-Nichols type of look across the 
entire government would do to help this out.
    There is a lot of bureaucratic resistance to doing certain 
things. There is tremendous number of people across the 
government who want to do this. But clearly, there is a lot of 
people who have been brought up, just like our services were 
over many, many years, who are entrenched in those services and 
those stovepipes in a way that it takes a long time to break 
down that resistance.
    Ms. Davis of California. And I guess I am just wondering if 
the resources are there to enable you to try and bring that 
vision forward. Does it take resources, or does it just really 
take the will to do it?
    Admiral Giambastiani. I think General Pace brought this up 
in some of his testimony before both this committee and also 
the Senate Armed Services Committee. Our lessons learned show 
that what I would suggest this type of high-level debate and 
discussion within the legislative and executive branch. As a 
humble personal opinion here from this military officer looking 
at it, I would tell you that it certainly seems to be necessary 
to me. To directly answer your question, I think this is a 
fairly high-level debate.
    Ms. Davis of California. Thank you.
    Mr. Secretary.
    Secretary England. Well, Ms. Davis, I would just say one 
thing. This is not a resource issue. This is a leadership 
issue. Again, today this is about collaboration at the very 
senior levels. And I think this is all about leadership. And I 
believe that the leadership we have today in the various 
agencies are determined to make this work.
    Just last weekend, all the deputies were together. So there 
is an effort to work across the interagencies. And I think that 
is starting to strengthen, frankly. I believe we are doing 
better in that regard. And the QDR is an effort within the 
Department of Defense literally to send a message through the 
Department of Defense as to this is an interagency because the 
Department of Defense cannot win this war ourselves. I mean, 
this is a national--and then as the QDR points out, it is an 
international effort. It is going to require every resource of 
the U.S. Government and every international friend and ally to 
win in this war.
    So you will find this department very active in terms of 
outreach to our friends and allies around the world and across 
the interagency.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    And thank you, gentlemen, for not only being here today, 
but for your many years of dedicated service and sacrifice.
    Mr. Secretary, we watch with interest as you maneuvered 
from one key post to another. We are very glad to have you in 
your position here with us today.
    I want to pick up, if I could, on the line of questioning 
and discussion that Mr. Hefley was on earlier about how the QDR 
approached the use of the reserve component.
    And, Admiral, in listening to your answer, you concluded 
that we are looking at for the active component about once 
every three years a deployment and a sustained commitment such 
as the one we are in now and for the reserve component, once 
every six years or so. And I am trying to understand how the 
QDR got to that. I know that that is the policy that we have 
been talking about in the department for the last year or two. 
And, frankly, I think I am being entirely consistent in saying 
that I believe that we have been over-using the reserve 
component all along.
    And so, the question I would ask is why didn't the QDR say 
what is the capability that we want and why shouldn't we get 
that in the active component until we got pushed over the edge 
and needed to go to the reserve component.
    How did you arrive at this sort of notion that it is okay 
every six years to call up members of the reserve component for 
essentially two years at a time in light of the concerns, which 
I know you are aware of, with employers' patience starting to 
wear thin? I am sure that the members of the guard and reserve 
are serving cheerfully, but it is putting a lot of strain on 
them and their families and their employers in a way that 
wasn't envisioned when that was set up.
    Admiral Giambastiani. Sir, what I would tell you is first 
of all, we don't expect all reserve component, whether the 
National Guard or reserve, to be in a one in six rotation. And 
we also don't expect ourselves to be in a continuous one in six 
rotation for all. But let me explain in a little more detail.
    First of all, if you take the National Guard brigade combat 
teams or if you take the other brigades in the reserve and 
National Guard, we don't expect to be able to--I mean, to have 
to deploy them in a one in six rotation. What we looked at was 
what is the capacity, what is the capability that we desire in 
the long-term that we need. The question you asked?
    And what we said to ourselves was from the perspective of 
those reserves who are in units, we want to be able to send 
them out as full units as opposed to the way we are doing it 
today where we have huge cross-leveling. Sometimes up to 40 or 
more percent of the unit is from various states as opposed to 
the integral unit. So cross-level equipment, all kinds of 
things.
    We don't want to do that. We want to send them out as a 
unit. But we don't want to over-use them. We talked to the 
National Guard leadership. We discussed it and debated it 
inside the Army in particular to ask ourselves what would be 
the optimum if we had to remain in a sustained war fighting or 
a sustained post-major combat operation situation. One in six 
would be about as much as we could handle.
    If I could just add one final point. That is many reserves 
do not rotate in units, as you well know. Many of them are in 
the Air Guard. Many of them come on and off of active duty 
constantly and serve all the time. So we are only talking about 
those units, if you will, as opposed to what we use for the 
individual reservists.
    Mr. Kline. Okay, I thank you for that. And I do know 
certainly individuals come on and off active duty. And you see 
that an awful lot in the Air Guard with the C-130's, for 
example. And we have our share of those in Minnesota. I am very 
proud of them.
    I am just still having difficulty on why we think it is the 
optimum to be requiring the reserve component to be called up 
on anything like that frequency. It just seems to me--and I 
feel very confident that in the minds of many people when they 
join the National Guard, some of them prior service where they 
had already served and deployed--they weren't envisioning being 
called out of their new careers with that kind of frequency. So 
I just was trying to understand why in the QDR you moved to 
that supposition that we were going to put those kinds of 
demands on the reserve component rather than creating an active 
component that wouldn't require that.
    Mr. Secretary.
    Secretary England. Mr. Kline, I think the key words are is 
that you would not be called up more than one every six years. 
It is not the expectation that every six years you are called 
up. But you would not be called up more than once every six 
years.
    Mr. Kline. Excuse me. I understand that.
    Secretary England. Pardon me. But it may be in your whole 
career you are only called up one time.
    Mr. Kline. Right.
    Secretary England. Which would be closer to none at all.
    Mr. Kline. The optimum, not the expectation. I just was 
trying to understand the thinking that went into that. I see my 
time is expired. I am going to continue to pursue this, and we 
will have other opportunities to discuss it.
    Secretary England. Sure, we will.
    Mr. Kline. Thank you, Mr. Chairman.
    Mr. Henry. If I could add one point to that, sir.
    Mr. Kline. Yes.
    Mr. Henry. And the vice chairman mentioned it in his 
opening remarks when he talked about the concept of a force 
planning construct and the issue of steady state versus surge. 
And we can do all the steady state tasks with the active 
component. But when we go in to do surge tasks, whether it be 
in homeland defense, something like Katrina, conventional 
operations, which would be major combat operations or a 
prolonged irregular conflict like we find in Iraq and 
Afghanistan, then that is the point where we would use the 
reserve component on this one in six rotation.
    Mr. Kline. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral, Mr. Henry, thank you for being 
here. It is fascinating to me. I think words really mean 
things. It is fascinating to me for the last three years, as we 
understood the post-September 11th attacks and Afghanistan and 
Iraq, words about the future are things like unpredictable, 
unconventional, asymmetrical, uncertain, unknowable, indirect, 
irregular, complex, adaptable for our enemies. And I think we 
all understand that we are in a very unconventional time, 
although we have to hedge our bets and make sure that we don't 
have a conventional enemy that becomes hostile.
    I am interested in what possessed anybody to pick the term 
long, for the long war, why we have a term now that has emerged 
in everybody's documents, the long war. If it is 
unconventional, unpredictable, and asymmetrical, how do you 
know it is long? And is long just basically the rubric that is 
being used to justify things like forever and ever, amen, 
supplementals to fund Iraq and Afghanistan when we certainly 
have known for well over two-and-a-half years that it is 
costing us anywhere between $4 billion and $6 billion a month?
    Mr. Secretary.
    Secretary England. The term is not derived from Iraq and 
Afghanistan. It is really looking at the nature of warfare in 
the future. I mean, the Nation has been in long wars. I mean, 
the Cold War was a long war. It was 40 years. And I think 
everybody recognized that there was a threat to America over a 
long period of time from before Korea until the wall came down 
in 1989. And there are other examples of long wars.
    So this was a recognition of the kinds of threats facing 
our Nation, a different kind of threat facing our Nation, a 
threat brought about by technology where terrorists can now be 
organized terrorist groups that they couldn't do before, at 
least on an international basis, where they have access to 
advanced technology, even commercial advance technology, much 
less military technology.
    The possibility that they may indeed acquire weapons of 
mass destruction, which, of course, would be hugely damaging to 
the United States, our friends and allies. And we have had 
weapons of mass destruction around for a long time before World 
War II. Right? I mean, used by countries.
    Ms. Tauscher. Developed in my district, the Livermore Lab.
    Secretary England. Pardon?
    Ms. Tauscher. We have two national labs in my congressional 
district, so I know all about----
    Secretary England. Okay. So, I mean, our assessment is that 
this is when you look out into the future, I mean, this threat 
is not going to go away. It appears to be deep rooted in some 
sections and people in the world. And they are apparently 
determined to disrupt our way of life and to do us great 
damage. And so, our assessment is that this is a long war.
    And, frankly, I will give you my personal view of this. My 
personal view, the way I think about this is that Afghanistan 
and Iraq are more in my lifetime of experience more like Korea. 
That is this is beginning.
    Korea was basically the first bloody battle, not the war, 
but a bloody battle of a long war that lasted until the wall 
came down almost 40 years later. And in my personal construct 
of life, you know, having been through that in my lifetime, I 
mean, I see Iraq and Afghanistan as sort of equivalent to that. 
This is a bloody battle of a long war, most of which is still 
in front of us. And I think the QDR tries to encapsulate that 
in terms of looking at the future.
    Ms. Tauscher. Well, assuming that I buy into this premise 
that this is a long war--I am not sure I do, by the way--what 
are the metrics we use to evaluate our failures and successes 
in a long war?
    Secretary England. I think one thing you do is you measure 
your preparedness to deal with uncertainty in a long war 
because that is part of not knowing what this future is going 
to be. And that is part of what we are trying to do. So this is 
how do you measure your preparedness to deal with a wide range 
of threats.
    In the QDR, we really pointed out a number of threats, 
which I commented in my opening statement. So there is a wide 
range of threats to America. And in my judgment, the measure is 
how you prepare, the probability that you will have to deal 
with these and your level of preparedness to deal with them. 
Because, you know, I am not sure you can have detailed metrics, 
except in the preparedness area.
    Ms. Tauscher. Well, let me just comment on something that 
Ms. Davis was talking about in the congressional defense 
review. We had significant testimony from many members of the 
military, some of it in classified settings.
    Over and over and over again what we heard from our 
military commanders was where were the civilians. And I think 
that what we have to understand is whether this war is long or 
short, whether it is unconventional, asymmetrical or has a 
conventional component to it, whatever the scenario we see 
coming forward, what we have to do are two things. First and 
foremost, we can't have the situation we had in Afghanistan 
where we don't have follow-on civilians, for example, from the 
Department of Agriculture saying to the Afghanis, ``Winter 
wheat, not poppies,'' because part of the fight that we have 
now is we have a narco state called Afghanistan. And I don't 
think that is good for anybody.
    And we can't have a situation where we don't know that our 
foreign policy is engaging enough and enticing enough and is 
culturally sensitive enough to move people toward us so that we 
don't ever have to use our military. And I find that we need 
more congruency in the QDR, much more of a connection. I 
thought that Admiral Giambastiani's comment about Goldwater-
Nichols applying to Congress--I am for it because we do not 
have an arc of control in the Congress over things where things 
actually meld together now because of the asymmetry of the kind 
of fights we have and the enemies we have out there.
    So I appreciate your comments. I think that this is an 
interesting rhetorical debate. But I think it really hits 
policy. And I would be interested. And my time is up.
    Secretary England. Okay, but listen. We do not disagree 
here. I mean, again, this is all elements of the Federal 
Government, international friends and allies. And this is 
political. And it is economical. And I know there are a lot of 
dimensions to this war, one of which is the Department of 
Defense.
    Earlier I commented to Mr. Thornberry about two sides of 
the same coin. It applies in this regime also. That is in most 
parts of the world you need security for economic development. 
But long-term, you need economic development for security. So, 
again, it is two sides of the same coin.
    We work on the first side of this coin to allow the second 
to occur, hopefully. And, I mean, that is, I believe, part of 
this dimension going forward. So we do not disagree here.
    The Chairman. Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. I want to see 
if I can make my question coherent. And, as you probably would 
expect, it is going to be talking about carriers and 
submarines.
    Back in the QDR 4 years ago, it was required to have 12 
carriers. Ever since I have sat on this committee, I have 
repeatedly asked the question any time there was a panel here 
how many carriers were needed. Everyone says 12.
    This QDR, I believe, says 11. The last time I looked, the 
waters aren't getting any smaller. We are still in this war. We 
wouldn't have made it in Afghanistan without seven of the 
carriers. But what really concerns me is we are retiring the 
USS John F. Kennedy (JFK), which, if I understand correctly, we 
will be dropping down to 10 carriers for about an 18-month or 
2-year period.
    Did anyone take into account that conceivably 2-year period 
where we will be down to 10 carriers? And also I am not real 
clear on how the department plans to get to the 60/40 in 
submarines and the six to five in the carriers in the Pacific. 
I think that is what it said in the QDR. And I guess I have 
just got a real concern because we don't know--and you said it 
today--we don't know where this war is going to take us. And we 
don't know when our allies are going to close down our land 
ports, if you will and we are going to need sea basing. And I 
guess I am still not satisfied.
    What I am told in my office is it is a risk we can take. I 
guess that doesn't make me real comfortable, that it is a risk 
we can take. So----
    Secretary England. Ms. Davis, you know, about 2 years ago 
the Navy concluded that they could go down to 11 carriers on 
the basis of, again, capability rather than numbers because a 
carrier today is vastly superior to a carrier in the past. A 
new carrier will be able to service, like, 1,000 sorties. And 
in the past, it was, you know, in the tens of numbers. And 
eventually and I think today it is like 330 or somewhere like 
that. But it is going up rapidly to 600 and to 1,000.
    And we are investing in new airplanes and smart munitions 
and all those things that make our carriers much more capable. 
In addition, the Kennedy, frankly, is not in very good shape. I 
mean, every inspection is worst than the last one. And I 
understand the bill is now well over $2 billion of maintenance 
on the Kennedy that would literally take years. So, I mean, it 
is not going to be in service for an extraordinarily long 
period of time, even if you wanted to put it back in service, 
frankly.
    Ms. Davis of California. I don't mean to interrupt, but I 
don't disagree with you on that because I also am well aware 
that $2 billion would come out of building the next CVN 21, 
which I don't want to do. But I also am very concerned about 
that 2-year period we are down to 10.
    Secretary England. Well, but, you know, there are options 
of the Navy. I mean, we can extend things dependent what the 
fuel capacity is of our nuclear carriers. We do want to get to 
an all--and I can speak for the Navy now. But having been 
secretary of the Navy, we do want to get to an all-nuclear 
force. And that is beneficial.
    We also, you know, want to disburse the force. I mean, 
there are a whole lot of demands. But we were asked, by the 
way, in the QDR to specifically look at this issue. So we were 
asked by the Congress to look at this in the QDR and to make a 
concluding recommendation. So we did.
    We went back and examined this process one more time in the 
QDR, came to the conclusion that this was the right course, to 
retire the Kennedy. So that is the path that we recommended in 
the QDR. And my judgment is it is still the right path for 
America, particularly when you consider the very, very high 
expense to get the Kennedy--and even at the end of the day, it 
still will be a conventional carrier with limited capability 
for America.
    So, I mean, frankly, its time has come. And the QDR just 
reaffirms that earlier decision by the Department of the Navy.
    Admiral Giambastiani. Ms. Davis.
    Ms. Davis of California. I don't disagree with that. But 
you are not answering the question. What did you do about that 
2-year period we are going down to 10?
    Sorry, Admiral.
    Admiral Giambastiani. If I could just add one thing. Part 
of the analysis that we did is that we can surge aircraft 
carriers and carrier air wings to a much higher degree today 
than we could in the past. Remember I said we looked at steady 
state, and we also looked at surge. And our ability with 
maintenance patterns and the rest to be able to surge these and 
to respond to crises is a very significant component of the 
overall strategy, which I think helped reinforce this when we 
went through the analysis.
    Secretary England. Thank you.
    And, Ms. Davis, regarding the gap in there, again, my 
judgment is there will be opportunities. In the past, we have 
been able to extend particularly some of our nuclear carriers 
just because dependent on the usage and the speed and all that, 
we have energy left in the core. And so, in the past, we have 
been able to do that. I don't know if we can do that. But 
typically we have been able to do that in the past. And so, I 
would not just rule that out.
    Ms. Davis of California. Mr. Chairman, I could ask a 
million more questions about this, but my time is up. So maybe 
next time.
    Thank you, gentlemen.
    Secretary England. Thank you.
    The Chairman. Mr. Snyder.
    Dr. Snyder. Mr. Chairman, if there are other questioners, 
could I pass and come back to me? I was going to ask some 
questions for Mr. Krepinevich's written statement, but he just 
stepped out. And maybe he will come back in the next few 
minutes.
    The Chairman. Sure.
    Dr. Snyder. Yes.
    The Chairman. We won't forget about you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Admiral, I think you met this past week with a young man 
who was trying to get in the Naval Academy in a year or two. 
And you made a very good impression on him. So he is still sold 
on the Naval Academy.
    Admiral Giambastiani. Thank you, sir.
    Mr. Conaway. In the 2007 budget, it seems we have got $80 
billion for procurement and $72 billion for research, which is 
just, you know, rough numbers. You know, we are trying to 
figure out new stuff, and we are spending about as much money 
on new stuff as we are actually buying things. There is a part 
of the QDR giving its 20-year look. And you have got this 
incredible matrix of moving parts in terms of new platforms, 
new capabilities, new gear, new whatever that is in there and 
also that money is tight.
    And I know, you know, over the last several years it 
doesn't look like that. But we will eventually have to make 
some choices. And it would seem to me that a choice that we 
could look at is this ratio between research and procurement 
with the idea that can you articulate any realistic risks that 
some other bad guy nation or some other bad guy person could 
invent a weapon or a capability that we can't currently defend 
ourselves or that, you know, puts our protectors, the young men 
and women that wear our uniform at a disadvantage that is 
unacceptable to us. Is that capability out there to justify the 
research dollars?
    Secretary England. Mr. Conaway, of course, we have a very 
robust Defense Advanced Research Projects Agency (DARPA) 
capability. We have very robust labs within the services. We 
have our national labs. We literally have American industry 
that invests in their R&D budgets, some of which are billed 
back as part of their contracts to us.
    So I guess my judgment is we have a robust R&D program in 
the United States across a very broad spectrum, everything from 
deep water to space to biological to, you know, just about 
everything. I guess you can always do more R&D obviously.
    But, frankly, I feel comfortable where we are. Typically 
the Congress actually adds funds to the R&D account every year. 
And they are robust. And so, I am not quite sure what the----
    Mr. Conaway. Well, I guess the idea is that maybe the R&D 
budget shouldn't be so robust, given the overall circumstances. 
And if you looked at the risks that--obviously the platforms 
that we are developing, all the research that is going on is 
intended to counter something that may already be out there or 
is countering something we expect. And when you step back and 
look at that array of stuff that we are doing, are there 
opportunities or choices to say, ``All right, that capability 
we really don't need for ten years and may not need at all,'' 
and thereby, lowering the R&D budget?
    Secretary England. I, frankly, recommend not, Mr. Conaway. 
The thing we don't want to be is surprised. And so, in my 
judgment, you do need, particularly as the United States of 
America, need to look across this broad spectrum of technology 
because if anything, this is such a rapid change and it will 
likely be that way.
    The science and technology--I have heard people predict it 
is going to be four times the rate we have had in the past in 
rate of change and things. And that being the case, actually my 
concern is probably the other way. That is there is so much 
research now going on in other countries that used to not have 
that kind of research. And a lot of companies have moved to 
other countries.
    And so, there is now research internationally that is 
extensive. And, again, I believe we have a balanced approach 
here between our research and our procurement. But obviously 
that is a matter of judgment.
    Mr. Conaway. Well, I guess one way to look at----
    Secretary England. I mean, I would be happy to hear your 
views on this subject.
    Mr. Conaway. Sure. Well, I am careful about rookies coming 
by with drive-by shootings and telling professionals--but if 
you looked inside this budget in terms of just absolute dollars 
spent versus our budget, in terms of bad guys out there who are 
looking to build things either for their own account or to sell 
to other folks to hurt us with, I guess are we taking the right 
amount of risks? In other words, it is going to be okay to take 
some risks, in my mind. And it seems as if we are developing a 
nation that is just totally risk averse.
    We get up every morning, and we politicians try to figure 
out how we are going to scare ourselves into being reelected or 
scare the general public into reelecting us. And it is a race 
to who can frighten the public the most. We are getting to be a 
nation that is afraid of our own shadow. And it seems to 
translate into our military budget as well.
    Secretary England. Well, I will tell you. We try to take a 
risk-based approach in the QDR. And there are programs--and I 
guess we just had the discussion about the carriers. I mean, 
that is a risk-based approach. Certainly, you know, you can 
have any number. But you do balance this, and you balance it 
across the broad spectrum of capability. So we do try to 
balance the risk across a broad spectrum of capability rather 
than in one sector.
    So it is about risk. And we do, frankly, need the help of 
the Congress in this because it is a risk-based situation. And 
we need to be able to move away from some areas where we 
believe we can have higher risks to invest in other areas where 
we believe the risk is too excessive. So, again, this dialogue 
is important for us because we do need to come out with a 
balanced quote, what we call a balanced portfolio of 
capability.
    Mr. Conaway. Well, I appreciate the secretary's comments 
because that is more articulate than my lame attempts of trying 
to get to that.
    Secretary England. We would be happy to--look, nobody has a 
corner on this. And so, we are pleased to engage in dialogue to 
whatever extent, you are available. We would be pleased to have 
further discussions with you, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. My time is expired.
    The Chairman. Mr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Gentlemen, Mr. Krepinevich is sitting to your right there. 
He is going to be on the second panel. I thought I would read a 
couple statements from his written testimony and let you all 
respond to it. I am also showing off that I can pronounce his 
name properly.
    I want to read this statement. This is actually a 
paragraph.
    ``Is the defense program adequately funded? It is not. The 
QDR calls for a large scale modernization effort in the coming 
years, the first in over two decades. Yet it also proposes to 
reduce defense spending toward the end of this decade in part 
by holding down spending on personnel, even though recent 
increases in benefits have failed to stem the decline in the 
quality of recruits entering the Army.
    ``To be sure, some personnel cuts are planned. And a few 
small programs will be canceled. But the tough choices were 
deferred raising doubts whether the existing defense program 
could be executed, let alone one including initiatives to 
address the new and emerging challenges to U.S. security. 
Independent estimates conclude that over the long-term the 
defense program may be short some $50 billion a year, a 
shortfall that will prove difficult to erase, given the 
Administration's plans to cut the deficit in half by 2009.''
    Would you all, Mr. Secretary, comment on that? Does this 
QDR over-promise without confronting the American people with 
hard choices we need to make about defense policy?
    Secretary England. Well, again, the QDR is not a program 
document. So I guess I have a disagreement here. And I don't 
think that is an appropriate assessment. It is a strategic 
document. It is not a program document. The program is the 
President's fiscal year 2007 budget. No one ever expected the 
QDR to be implemented in the 2007 budget. The original plan was 
none of it would be implemented in the 2007 budget. And we took 
it upon ourselves to do as much as we could, Mr. Snyder, in the 
2007 budget.
    So I don't think that is a correct representation to say 
that no choices, no hard choice has been made. Some were made 
to the extent that that was doable in the 2007 budget. The QDR 
will ``play out'' over a period of years. It isn't going to 
happen at one time. There are broad considerations. I mean, 
there are, frankly, industrial considerations. There are 
congressional considerations. There are department 
considerations. There are international considerations.
    I have learned that this is a question of finding the right 
confluence of situations that are important that you can get 
concurrence on. So this will play out over a long period of 
time. It is certainly not going to be something you can judge 
today in terms of what programs have either been canceled or 
implemented because it is a strategic direction. And we will 
continue to learn and adapt and make decisions as we need to 
going forward.
    Dr. Snyder. Let me read a couple of quotes that relate to 
the Navy, again, from Mr. Krepinevich's written statement. I 
don't know if you all have seen it or not. This one sentence 
here, ``The Navy's DD(X) destroyer at roughly $4 billion a copy 
is a fire power platform. Yet the naval challenge from China, 
if it comes, will be centered on its submarine force, a threat 
against which the DDX is irrelevant.'' Do you all have any 
comments about that statement?
    Secretary England. Well, first of all, we have concluded in 
QDR there is a minimum number of submarines. And we have said 
that we need to increase the rate of submarines in 2011 to go 
to two a year so we maintain the right number of submarines 
because we understand that. I think DD(X) is debatable as to 
different views on that subject.
    On the other hand, to be frank, we are building DD(G)s 
today. We are not about to shut down the shipbuilding industry 
in the United States. We do not need any more DD(G)s. And 
DD(X), to the best of everybody's judgment, is a very useful 
platform, both for defense in the fleet and for offensive 
purposes. So I think that is a judgment call. But nonetheless, 
our judgment is and is the consensus of the entire U.S. 
military and civilian leadership that at this time, that is the 
right ship to build. How many we build is a different issue. 
But I believe it is appropriate to build it.
    And we have also emphasized it is not going to be $4 
billion. I don't know where that number came from, but I can 
tell you that won't be the case. We have emphasized, frankly, 
fitting this into a reasonable number in terms of affordability 
for the Navy because at the end of the day, they do have to 
afford this within their budget. And they are taking steps to 
take money out.
    And that was one issue that was addressed in the QDR. So 
affordability was indeed considered. But I believe--and the QDR 
team concurs--that that is the right approach to proceed with 
DD(X). And, again, the total number, I think, is still open at 
this point.
    Dr. Snyder. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Saxton.
    Mr. Saxton. Mr. Secretary and Admiral Giambastiani. I 
figured if Mr. Snyder got to show off, I would, too.
    Admiral G., thank you.
    Admiral Giambastiani. Thank you, sir.
    Mr. Saxton. I have a question that won't surprise any of 
you because we have had similar discussions before. The C-17 
line was designed, I am told, to fly 30,000 hours. And that 
would be over a 30-year period. And obviously the simple math 
tells you that the airplanes were expected--the assumption was 
that they would fly 1,000 hours a year.
    I recently learned that they are flying 1,000 a year plus. 
In fact, they are flying 160 percent of what was anticipated, 
which with more simple math shows us that for the last 5 years 
at least we have been flying them 1,600 hours a year on 
average. The first squadron of C-17s were stood up, I believe, 
at Charleston in January of 1995, making those airplanes 11 
years old.
    We build about 15 a year so that those that came online in 
1996 are now 20 years old. Those that came online in 1997 are 
now 21 years old. Those that came online in 1998 are now 22 
years--I am sorry, I am saying this wrong--are now 8 years old. 
And those that came online in 1999 have now been in service for 
9 years, leaving the oldest with 19 years of life expectancy, 
according to the original plan. And the newest that came online 
in 1999--and that is where I have stopped with my little 
analysis here--have 23 years of life expectancy remaining.
    Notwithstanding the fact that we have flown them more than 
1,000 hours. When you factor in that over the last 5 years we 
have flown them at actually 159 percent--I did round up to 160 
percent--that means that we have flown them 8,000 hours each 
over the last 5 years or 3,000 hours more than we thought we 
would.
    What that means to me is that those that we originally 
thought at this point would have 19 years of expectancy left 
have 3 years less, as do all of the others. Meaning that 75 
percent of our airplanes, C-17s--75 of our airplanes or 50 
percent of the fleet have less than--20 years or less life 
expectancy. I guess my question is this. In the QDR, which is 
supposed to look out 20 years, what plans have we made to 
replace or modernize the fleet.
    Secretary England. Mr. Saxton, if I could answer. I guess 
we have done a few things. First of all, the over-usage of the 
C-17s because of the war--we have actually used the equivalent 
of about, I believe, seven, nine. It is still being analyzed, 
but in that area.
    We have actually used that equivalent number of airplanes 
consistent with the ground rules that we have for our 
supplemental, we do plan to include in the supplemental funds 
for those equivalent number of airplanes to be replaced as a 
consequence of usage during the war. So we will be replacing. 
So the amount that we have used in the above expectations--our 
plan is to basically add that life through the equivalent 
number of airplanes being bought.
    We also are planning to move to a new tanker program, which 
will also have cargo capability. Today we use C-17s for all of 
our cargo capability. If we have a tanker/cargo combination, it 
allows us to use those tankers for commodity type cargo, which 
today we are using C-17s, which would lessen the number of 
hours on the C-17.
    So the approach today is to upgrade the C-5A, upgrade the 
C-5B, finish the C-17 billet, except for international and the 
ones that we talk about for overage and then also move into the 
tanker program, which also has a cargo capability. So that is 
the approach going forward, which takes us out well into that 
20-year period in terms of lift capability for the United 
States government.
    Mr. Saxton. Now, if we buy, you say, seven additional 
aircraft, then that would round out the buy in 2008. Correct?
    Secretary England. Well, I am not sure that is the exact, 
but it is somewhere, seven, nine, thereabouts for the usage 
rate, over-usage rate. And in addition, there are international 
sales that are pending on C-17. But at that point, that would--
--
    Mr. Saxton. But let us honestly not be too optimistic. We 
know that the Aussies are probably going to buy four. And the 
E.U. may buy four. That is nice, but that is not a significant 
buy in terms of going forward far.
    Secretary England. No, but again, my point is that still--
you asked what is the plan. I mean, that is the plan between C-
5, C-17s and the new tanker, combination tanker/cargo, that 
would provide the lift capability for the country.
    Mr. Saxton. I am sorry, but that really wasn't my question. 
My question was, given the fact that this is a long war and the 
last 5 years we have flown 159 percent of what we thought we 
would, which means we are over-flying the fleet, you are 
proposing to fix this whole deal by buying the equivalent to 
what we have over-used them currently and hope that we can do 
intra-theater as well as inter-theater requirements with 
tankers and C-17s.
    My point, I guess, to you would be to respectfully suggest 
that when supplementals go away we won't have the luxury of 
saying we have over-flown the fleet and we are going to buy 
more through a supplemental, which does not then exist and if 
the line happens to be still open.
    Secretary England. But we also will have a tanker/cargo 
airplane in production. That money is in the budget. And we are 
getting close to requests for procurement (RFPs) and proceeding 
with that program. So that is additional lift that we will 
bring online.
    Mr. Saxton. I would just respectfully suggest--and my time 
has expired, so this will be my conclusion--is that I hope that 
this all works out fine. I suggest that there is a better than 
equal chance that we will be nearing the end of the lifetime 
usefulness of the C-17. And there will be those asking the 
question who made this decision.
    Secretary England. Mr. Saxton, I expect C-17s like our 
other airplanes will be upgraded, modified, re-engined, just 
like we do in those C-5s today. So the life of those 
airplanes--I mean, typically we extend the life through 
extensive modifications. And I would expect it would be no 
different for the C-17.
    Mr. Saxton. Thank you, sir.
    Secretary England. You are welcome. Thank you.
    The Chairman. The gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And, Mr. Secretary, it is good to see you again. And I 
thank you again, you and Mrs. England, for visiting Guam.
    Also to you, Admiral, welcome.
    Secretary England. You are welcome.
    Ms. Bordallo. I have a question on intelligence collection. 
I am concerned that the United States does not have sufficient 
information on the capabilities, planning and intentions of 
hard target countries, some of whom pose significant threats to 
the U.S. Since the release of the 9/11 Commission report and 
since the invasion of Iraq, the quality of U.S. intelligence 
collection capability, in my opinion, has been in question.
    Clearly, some countries are not easy for intelligence 
collectors to operate in. And as a result, the information on 
which our policy makers and commanders base their decisions is 
sometimes limited. I believe we should improve our intelligence 
collection capability so that our policy makers can benefit 
from higher quality information.
    I know that on Guam we are all excited. We will be hosting 
U.S. Global Hawk unmanned aerial vehicles. But, Mr. Secretary, 
do you think the QDR creates an appropriate road map for 
innovative thinking on U.S. military intelligence capabilities 
on acquiring information on hard target countries such as North 
Korea? In your opinion, does the QDR provide the Congress 
sufficient guidance on how to best provide for U.S. military 
intelligence as it seeks information on these difficult 
countries?
    Secretary England. Ms. Bordallo, I am going to turn that 
over to my military expert, if I can.
    Admiral Giambastiani. Ma'am, thank you. I would make a few 
comments.
    First of all, we spend a significant amount of time, as you 
know, in the verbiage of the report talking about intelligence 
collection. Now, clearly, this is a bigger issue than just the 
Department of Defense. However, the department has a sizeable 
amount of intelligence assets within the intelligence 
community.
    What I would suggest to you is is that the first part in 
support of general intelligence collection, we spend a 
significant amount of resources within the Defense Department 
to upgrade, as you have mentioned, the Global Hawk, but not 
only that, a significant amount of our unmanned aerial vehicle 
capacity to be able to collect on intelligence. There are also 
numerous classified programs in the satellite world, for 
example, and others where we have spent quite a bit of time 
adding additional resources.
    I can't get into the specifics here in this hearing, but 
going back to the unmanned side, for example, we essentially 
will double our capacity, is what we are looking for in 
unmanned aerial vehicle capability. That is a sizeable and very 
substantial commitment.
    In addition, organizationally we have some very big changes 
coming up. Some are to transition our fusion centers to make it 
both an operational and an intelligence fusion center to 
support our commanders out on the field. Now, with regard to 
looking for hard and deeply buried targets, clearly, that is a 
way because of our precision weaponry more and more adversaries 
in certain areas are burying, if you will, to protect their 
infrastructure. And this is an important area that we have to 
focus on. We understand that. And, again, without going into a 
classified discussion, we would do that.
    But this general area of intelligence, surveillance and 
reconnaissance has really brought a lot of attention and focus. 
I can't tell you how many hours we have spent. I have only 
given you a couple of snippets here.
    Ms. Bordallo. Thank you very much.
    I have one quick question also, Mr. Chairman.
    This is following up on Ms. Davis's questions on the 
carriers. I think maybe, Mr. Secretary, you may be able to 
answer this. The QDR was highly anticipated by so many in our 
country and especially the community on Guam. We were truly 
looking forward to that report.
    Most important to the Pacific was the decision to move to a 
60/40 split on submarines favoring the Pacific over the 
Atlantic as well as increasing the carrier presence in the 
Pacific by one. And as you know, for the past two years, I have 
long advocated for changes such as these. And I am especially 
well attuned to the growing threat of China and North Korea 
because of our location and further advocated that increased 
resources be moved to the island of Guam because of our bases 
and immensely valuable strategic location.
    I am aware that the decision as to home porting of carriers 
still remains. Although this decision has long been discussed, 
it appears we are no closer to making a final decision. Hawaii 
must make infrastructure decisions if it knows a carrier is 
coming. And Guam must prepare in an even more robust way.
    And I believe that it is time to set a timeline and make 
clear what process will be followed to make this decision. And 
I realize, Mr. Secretary, this is not some arbitrary decision 
that happens in a vacuum. But can you please discuss how and 
when decisions will be made to implement this strategy? When 
will firm decisions be made?
    Secretary England. Ms. Bordallo, we will have to get back 
with you on that subject. I mean, again, the QDR emphasizes the 
strategic importance of the Pacific. The details of when those 
decisions will be made I don't believe any of the three of us 
have that detail. But I will personally get back with you on 
that subject. So if you will allow me, I will get back with you 
on this subject----
    Ms. Bordallo. Thank you, Mr. Secretary.
    Secretary England [continuing]. And make sure we address 
that issue with you.
    Ms. Bordallo. We are still optimistic. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Georgia, Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    I would like to associate myself with the current 
chairman's comments about the C-17 program. I don't know that 
that is really to be discussed today. But the case that has 
been made so far seems to me to be rather weak to end the line 
in 2008. And I hope we will be dealing with this over the 
future weeks.
    Secretary England. Mr. Marshall, can I make one comment, 
though? And I think across the board here--I mean, this is a 
question of balance for us. And at the end of the day, there is 
only so much money in the defense budget. It is important. I 
mean, the QDR--we have funded a number of new initiatives: 
special operation forces, bio-defense, efforts in homeland 
security. I mean, there are questions about lots of other 
projects.
    I mean, at some point, we do need to balance the force. 
Otherwise, we will be in the status quo, you know, we will be 
in this identical position for the next 20 years. I mean----
    Mr. Marshall. I understand. And the question is going to be 
where to strike that balance. And somehow we will muddle 
through this.
    Secretary England. And understand it is debatable, and we 
appreciate the debate. I just emphasize we do need to be open 
on this matter. Otherwise, we will be in the same situation 20 
years from now we are today.
    Mr. Marshall. We could have thousands of C-17s. I know it 
is not going to happen.
    I got in a little bit of trouble, I guess, raising the 
question in the projection forces committee meeting, the last 
one we had, which dealt with the tanker program. And what I did 
was I said, ``Gosh, I would like to hear what the witnesses 
have to say in response to what I consider to be my 
subcommittee chairman Mr. Bartlett's reluctances concerning the 
tanker program.'' And so, I described, I thought, what his 
position was and then said, ``What do you all have to say about 
this?''
    And then an article came out saying that was my position. I 
thought I had been quite clear that I was trying to describe a 
position that I heard and not adopted as my own but just say I 
have heard this position, I would like to hear what your 
response is. And I am going to do the same thing now at the 
risk of having the same thing happen to me.
    While you all have been talking, I read the written 
testimony of the panel to follow you. There are three 
individuals. Mr. Donnelly goes so far as to say in his final 
page, thus it has become his view. This says ``my view.'' I 
want to be careful about using that word. This is a quote from 
his testimony: ``Thus it has become his view that the QDR 
process has outlived its usefulness. The many defense reviews 
of the past decades have failed utterly to do what they were 
meant to do, provide a link between strategy, force planning 
and defense budgeting. Indeed with every QDR, the situation has 
gotten worse. The basic ends means dichotomy has grown wider.''
    He says that, Mr. Secretary, in response to Mr. Snyder's 
question, which was just quoting verbatim Mr. Krepinevich's 
written testimony. Did I say it correctly?
    Dr. Krepinevich. Krepinevich.
    Mr. Marshall. Your response was, if I understood correctly, 
that there would be programmatic decisions that we would make 
with regard to particular platforms, et cetera, as time 
progressed, that the QDR really wasn't a place to do that. And 
yet it sounds like Mr. Donnelly is saying and that is the 
problem with the QDR. It was intended to do exactly that, make 
these tough calls. And it hasn't done that.
    What I would ask is this. And I don't expect that you would 
respond now or that anybody would respond now. I don't know 
that we have got the time. But if you look at Mr. Krepinevich's 
statement, he makes some very specific comments about specific 
platforms and the wisdom, given the threats and our likely 
future strategic needs of spending money on those initiatives.
    And what I would ask maybe is that you look through that 
testimony and maybe give a written comment in response to each 
one of the observations that are made. They are fairly 
succinct. They start on page nine. And he just runs through a 
list of about five specific examples of where he thinks we are 
misplacing our priorities.
    Secretary England. Mr. Marshall, first of all, Mr. 
Krepinevich is on our read team, so, I mean, he has direct 
input into the system. And I respect his views. I have to say, 
however, that there are a lot of personal views. I mean, 
everybody has a personal view. And I respect all these views. 
But, frankly, in the QDR we heard lots of personal views, I, 
mean, from lots of people, a lot of them divergent. And since 
then, of course, lots of people in the press. And I respect all 
those views.
    But we tried to strike a balance across a lot of inputs and 
a lot of threat data. And so, the realism of the world we deal 
with is this is a strategic document. It is not a program 
document. So, I mean, I hope there is no misunderstanding. I 
think everybody agrees with that.
    Mr. Marshall. Mr. Secretary, are you suggesting that it is 
inappropriate for you to reply to a particular view since----
    Secretary England. Pardon?
    Mr. Marshall. It is inappropriate for you to reply to 
particular individual views.
    Secretary England. Is it appropriate for me----
    Mr. Marshall. Are you suggesting that it is inappropriate, 
since the document itself represents the combined thinking of 
an awful lot of people and a lot of views put together over a 
long period of time, it is at this point inappropriate to 
comment or reply to----
    Secretary England. No, no, no. No, look, I mean, we are 
very open. Again, you know, this whole process, you know, we 
were international. We had people from different countries. We 
have had people from different militaries. We have had think 
tanks. I mean, we outreached everyone we could. I mean, we have 
literally had thousands of inputs into this system. But there 
are also people outside this system that didn't get an input 
in. They have their views, and I respect them.
    I am just saying that while everybody has personal views, I 
believe that we have considered as much thoughtful input as we 
could in terms of arriving at the conclusions of the QDR. It is 
not an individual person's input in the QDR. It is based on a 
lot of thoughtful work by a lot of people who worked very hard.
    And look, it is certainly not a perfect document. It will 
be revised as we go forward. And I appreciate all these 
comments and inputs. But again, there are lots of personal 
views. I respect them, but I also understand they are personal 
comments and opinions of people. I am just trying to put it all 
in perspective. That is all, sir.
    Mr. Marshall. Well, I have got that. I just have a specific 
request. And that is there are about 4 specific points that are 
made beginning on page 9 lapping over to page 10. And it would 
be helpful to me if, despite the fact that they are personal 
views, some comment.
    Secretary England. No, I would be happy to respond. No, I 
would be happy, Mr. Marshall. And we will get back with you and 
meet with you personally or whatever. No, we are pleased to 
respond to you on this subject. Absolutely. And we will do so, 
sir. We will set up a time and come see you, sir.
    [The information referred to can be found in the Appendix 
beginning on page 103.]
    Mr. Marshall. Thank you.
    Secretary England. No, absolutely. Happy to do so.
    Mr. Marshall. Thanks.
    The Chairman. Thank the gentleman.
    The gentleman from South Carolina, my friend, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Mr. Secretary, Admiral, thank you very much for being 
here today.
    And Secretary England has received a number of accolades. 
But I have to tell you that in my home community, last year we 
were very pleased that he was the grand marshal of the Beaufort 
Water Festival parade. And so, many rose petals were thrown in 
his direction. This was right after BRAC with Parris Island and 
the Marine air station and naval hospital. So he knows where 
retirement beckons in the future. There is still one condo at 
Hilton Head available.
    Secretary England. It is very appealing, Mr. Wilson.
    Mr. Wilson. And many years from now. But again, as was 
earlier indicated, appreciation for our guard and reserve and 
what they are doing. As an indication, I think, of success, I 
have noted today that we have a 13-year high in recruiting for 
the Army National Guard, 26,000 new troops in the last 5 
months. And I think it is a recognition that your leadership, 
both of you, indeed the Pentagon in full is appreciative of the 
guard providing equipment.
    In my 31-year service with the guard I have never seen 
better troops serving. I have two sons who are in the guard 
now. I have another son very likely to join the guard later 
this year. So I want to thank you for what you have done.
    Now, the issue that always stirs passion--our appreciation 
of C-17s. I want to join with the chairman and the Member of 
Congress from Georgia. But the QDR properly recognizes that we 
have an asymmetric enemy long-term and there needs to be 
changes for that. But yet--and I know this is a virtually 
impossible question. But are there any major acquisition 
programs of the Cold War, after the victory of the Cold War, 
that could be canceled or, as was indicated earlier, our 
support of one aircraft? Can we look to any substantial changes 
or cancellations?
    Admiral Giambastiani. Mr. Wilson, thank you. And it is good 
to see you again, sir.
    Mr. Wilson. Thank you.
    Admiral Giambastiani. What I would say to you is--I don't 
think you were present earlier, but there is a series of 
systems that we have, frankly, that currently have either been 
terminated or we have recommended termination for or 
restructuring. Let me quickly go through and give you a list of 
these. The joint tactical radio system, restructuring airborne 
common sensor. We have terminated that. The existing contract 
was terminated. Then we are looking for a better approach to 
make it more joint.
    The B-52 standoff jammer, we have terminated that. The 
joint unmanned aerial combat system, restructured. Joint strike 
fighter alternate engine, terminated. E-10 and airborne laser, 
program reduced to development demonstration phase only. U-2 
and F-117, accelerated and early retirements. I could go on.
    There is a whole series of these that we have looked at. 
There are, frankly, billions of dollars, tens of billions of 
dollars inside the budget and we will see in the future that 
will be in this area. But those are some of our recommendations 
to date.
    Mr. Wilson. And I appreciate you reciting that and bringing 
that to the public's attention. Because the perception is that 
government programs have virtually eternal life. Also I want to 
commend you in that six years ago, I went on a rotation with my 
National Guard brigade to the national training center at Fort 
Irwin. The equipment that we used was the best equipment of the 
period, of the time.
    Now all of it could be in a museum because of the upgrades 
of the body armor, the vehicles themselves with up-armor, the 
gas masks that can be outfitted from outside, I mean, just on 
and on, the upgraded night vision capability, the unmanned 
aerial vehicel (UAV) use that you cited a few minutes ago. As a 
parent, as a veteran, I want to thank you. And I just look 
forward to working with you in the future and with great 
leadership like Chairman Saxton, you have strong supporters 
here.
    Thank both of you.
    Admiral Giambastiani. Thank you, Mr. Wilson.
    I might mention that I was just out at the National 
Training Center myself three weeks ago. And I was out for a 
rotation of soldiers in a Stryker Brigade Combat Team from up 
at Fort Lewis. I can assure you that the equipment they were 
using was front line. It was, frankly, across the board almost 
brand new.
    And we were training them to a much different level of 
sophistication in training than we have seen in the past. It is 
not that what we were doing before was wrong. But it is 
tailored to today's situations for today's deployments and 
readiness. I would encourage you to come out. It was really 
quite impressive. As a Navy officer, this is either my fifth or 
sixth visit out there. I have been out there a lot of times. 
And Brigadier General Bob Cone in the Army, I know, would love 
to host you, sir.
    Mr. Wilson. Well, I would love to visit and visit my son, 
who is in the Navy at Balboa Naval Hospital. Thank you very 
much.
    Mr. Saxton [presiding]. We are now going to turn to the 
gentleman from North Carolina, whose district almost includes 
Camp Lejeune and whom I had the privilege and honor of 
accompanying him to watch the new Marine Special Operations 
Command standup, MARSOC. And, Mr. Butterfield.
    Mr. Butterfield. Thank you very much, Mr. Chairman. And 
thank you for those comments. It was a great day in North 
Carolina and for our Nation. And thank you very much for those 
comments.
    I realize the hour is late, and I am not going to belabor 
this process any longer than I can. I realize that we have 
another panel waiting to come up on deck, and I am not going to 
interfere with them. So I am not going to have any questions, 
Mr. Chairman, except to thank all of you for your service to 
our country.
    I apologize for being late today. I have been down on the 
floor of the House reminding the Nation that the Solomon 
Amendment has been unanimously upheld by the U.S. Supreme 
Court. And our universities must make their campuses available.
    Thank you very much for your service.
    I yield back.
    Secretary England. Mr. Butterfield, thank you, sir.
    Mr. Saxton. Thank you for your brevity, Mr. Butterfield.
    Mr. Butterfield. Thank you, sir.
    Mr. Saxton. The gentleman from Hawaii has a very short and 
concise question that he wants to ask for the record.
    Mr. Abercrombie. Mr. Secretary, I don't know how I will 
make the question short because I am not sure you can answer it 
all here today. But perhaps we can get together on this. It has 
to do with the Northern Command. As you know, I am no fan of 
the Northern Command. It appears here on page 25, 36, 37, the 
background material we have, especially with this homeland 
security side of it, is that it is not clear in here at all in 
this Quadrennial Review as to what the role of the Northern 
Command is, what it has been doing for four years, why it 
exists.
    Everything here is couched in future terms about 
coordination of something or other, what they are going to do. 
Can you prepare for me and for the committee just exactly what 
is this Northern Command for, other than setting up another 
line of promotion, I suppose, and buildings and yanking people 
out of other commands to staff them in there? As far as I can 
tell, it is utterly, totally, completely useless and has not 
protocols, no programs, no anything at all, other than what you 
propose to do for it in the vaguest terms here in the QDR.
    Secretary England. Mr. Abercrombie, I will get back with 
you. But I do have to take issue about the Northern Command. It 
is an integral part, frankly, of the homeland security, 
homeland defense of the United States. And they are, in my 
judgment, immensely valuable to the Nation. But we will indeed 
get back with you. It is more than just, I think, a couple 
minutes sitting here. I mean, it does require----
    Mr. Abercrombie. No, I understand. Just so it is clear, you 
share training and exercises, standardizing operational 
concepts, compatible technology solutions and coordinated 
planning. You have had four years to do that. It is not here. 
Improved interagency planning--I would hope so--and enhance 
interoperability. Enhancing it means that you have 
interoperability right now. And I don't see it. I can't find 
it.
    So I would appreciate it if you could put together 
something that justifies why we should spend a penny more on 
this Northern Command and explain exactly how it is supposed to 
be able to do pre-event spending and to insert itself into 
operations that belong to the guard bureau. Okay?
    Thank you, Mr. Chairman.
    Secretary England. We will get back with you, Mr. 
Abercrombie. But again, I mean, I just for the record have to 
tell you that this is an integral part of the homeland security 
of the United States. And that is the office in the United 
States, the military office in the United States that commands 
all the forces in times of emergency or call-up in the country. 
So if we are faced with a catastrophe in the United States of 
America, we rely on Northern Command to take charge of U.S. 
forces during a time of crisis in America.
    But we will come back to you in detail and discuss this, 
sir. I mean, it does require more than just a couple of minutes 
of discussion.
    Mr. Abercrombie. Sure. Of course, it does.
    Secretary England. And, again, we will make arrangements 
with your office, Mr. Abercrombie.
    Mr. Abercrombie. I will provide you with a more detailed 
explication of what I am inquiring about.
    Secretary England. We will definitely close the loop with 
you, sir.
    Mr. Abercrombie. Thank you. We will get back with you.
    Thank you, Mr. Chairman.
    Mr. Saxton. I thank the gentleman from Hawaii.
    I have a question for the record also. And I intended and I 
probably will write a letter to you on this subject.
    Mr. Secretary and Admiral Giambastiani, you both had a 
short conversation a few minutes ago about the balance that we 
need between the continued evolution of DD(G) and standing up a 
capable DD(X). And I couldn't agree more.
    But one of the questions that I have and that I can't for 
the life of me understand is why in the world we are not 
competing the electronics component of DD(X). And I am going to 
write you a letter and ask you that question. I am sure you 
have an answer. But it seems to me that given the escalated 
cost that has driven some members of this committee to oppose 
DD(G), that we ought to be looking for ways to save. And it 
seems to me, I respectfully submit, that that is one of the 
ways. I will get you a letter this week, and we can talk about 
it further.
    Secretary England. Will do. Thank you, sir.
    Mr. Saxton. Okay, we are going to move to our----
    Mr. Taylor. Mr. Chairman, for the record, Mr. Abercrombie's 
question really did perk some interest that is of particular 
importance to me.
    Secretary England. Pardon me, Mr. Taylor, I can't hear you.
    Mr. Taylor. Sure. Mr. Abercrombie's question on Northern 
Command really did get me to thinking. I would like to request 
for the record a list of what elements, be it people, be it 
materiel, whatever, that Northern Command supplied to South 
Mississippi in the days prior to and, let us say, for the 30 
days after the hurricane. I think that is a fair question.
    Secretary England. No, I mean, that is available.
    [The information referred to can be found in the Appendix 
beginning on page 104.]
    Mr. Taylor. Thank you very much.
    Secretary England. We will respond to you, Mr. Taylor.
    Mr. Saxton. Thank you. And we appreciate that very much.
    Thank you for being here today. We really appreciate the 
job and the high degree of dedication that all three of you 
gentlemen are giving to your service to our country. And we 
look forward to working with you as we move forward.
    Secretary England. Mr. Saxton, same here. I thank the 
committee. This is a valuable interchange. And as I said at our 
very beginning, this needs to be a very cooperative effort. And 
we sincerely appreciate the cooperation of the committee. And 
we thank them very much, sir. And thank you to the membership.
    Admiral Giambastiani. Thank you, sir.
    Mr. Saxton. We are going to move now to our next panel as 
we bring them up to the table as this panel leaves.
    The first witness on panel two is Mr. Thomas Donnelly, who 
is a Resident Fellow of the American Enterprise Institute; Dr. 
Andrew F. Krepinevich, Executive Director of the Center on 
Strategic and Budgetary Assessments, who has recently written a 
good document, which I have had the opportunity to read, on the 
subject that we are here to discuss today, the QDR; and Mr. 
Lawrence J. Korb, Senior Fellow from the Center for American 
Progress.

 STATEMENT OF DR. LAWRENCE J. KORB, SENIOR FELLOW, CENTER FOR 
     AMERICAN PROGRESS, SENIOR ADVISOR, CENTER FOR DEFENSE 
                          INFORMATION

    Dr. Korb. Thank you very much, Mr. Chairman. It is a 
pleasure to be back here again before the committee.
    I have a statement for the record, which I would like to 
enter, and I will spend a few seconds summarizing.
    Mr. Saxton. Certainly, without objection. Thank you.
    Dr. Korb. I think the Congress is quite correct in asking 
for a QDR. And I must say, sitting here for the last couple of 
hours, I am somewhat disappointed in what it did not do. And I 
think to say that this edition compared to the previous ones in 
2001 and 1997 is a disappointment would be an understatement.
    Remember this is the first QDR that was written really 
since 9/11 and since the Bush Administration came out with its 
national security strategy. I also feel it does not deal with 
the real problems confronting the armed forces. And it has been 
mentioned here today several times it shows no sense of 
urgency.
    I don't have to tell you the problems facing our armed 
forces. Our ground forces are over-stretched and reaching the 
breaking point. Our weapons systems are not tailored to 
existing threats. And despite again what has been said here 
today, there are far more weapons on the drawing board than we 
can afford, given our record-setting deficits. Our nuclear 
posture is outdated, and we still don't have an appropriate 
role for the military in homeland defense. And I think that was 
brought up by the last couple of questions.
    But rather than recommending increasing the size of the 
Army to decrease the strain on our soldiers and allow us to get 
the National Guard back home so it can properly defend the 
homeland, they are talking about reducing the Army back to its 
pre-9/11 levels. It doesn't recommend canceling a single major 
weapons system. We heard today about some of the minor cuts, 
but it doesn't cancel a single one and has been quoted in 
Andy's testimony--and if you look at the Congressional Budget 
Office (CBO), we would need about $75 billion more in 2011 to 
pay for the weapons on the drawing board. It does nothing about 
the 7,000 nuclear weapons we have as well as the cost of 
maintaining that large arsenal.
    Now, we at the Center for American Progress decided that 
since they didn't do the job, we would. And we put out our own 
Quadrennial Defense Review, which I would also like to ask the 
chairman's permission to enter into the record.
    Mr. Saxton. Without objection.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    Dr. Korb. And basically what I will do is just say that our 
strategy is based on two principles, which we have heard 
discussed here today. One is realism. That is we want to 
respond to the real threats facing the United States to 
allocate the financial resources available for defense in a 
cost-effective manner and to redefine the military's 
capabilities and responsibilities after the fighting ends.
    What we do is we put people first. My old mentor told me 
people, not hardware, have got to be our highest priority. And 
we also recommend reopening the B-2 production line. We have 
heard here today about they have reduced it from getting a new 
bomber from 2037 to 2018. In our view, that is way too long. 
And we also want to integrate not just the armed forces, but 
the non-military government agencies and with our alliances.
    And let me conclude with this. We have heard talk today 
about spending our scarce resources. It seems to me that when 
you spend more on one program in the Department of Defense, 
national missile defense, than you do on the entire Coast 
Guard, you are not spending the resources of this country in 
the most effective manner to deal with the threats we face.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Korb can be found in the 
Appendix on page 71.]
    Mr. Saxton. Thank you.
    Dr. Krepinevich.

  STATEMENT OF DR. ANDREW F. KREPINEVICH, EXECUTIVE DIRECTOR, 
         CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman. In the interest 
of time, I will offer a brief summary of my testimony.
    In examining the Quadrennial Defense Review, I looked at 
three questions: does the QDR correctly identify the major 
challenges confronting the United States, is the program it 
proposes in balance with the projected resources that will be 
available to the Defense Department and third, does this QDR 
offer us the best defense program, the best mix of forces and 
capabilities to meet the challenges that it identifies.
    I think this QDR is particularly strong in identifying the 
major challenges to our security. There are, in the QDR's 
estimation and in mine as well, three enduring challenges that 
we will confront, not only in 2006, but over the coming 
decades. And those are obviously the trans-national network of 
radical Islamist organizations and movements, second, what I 
would call the nuclearization of Asia, the atomic arc of 
instability that potentially will stretch from the Persian Gulf 
to the Sea of Japan by the end of this decade and third, the 
question of the rise of China, what the QDR calls a country at 
a strategic crossroads.
    As Congressman Snyder mentioned in terms of the issue of 
whether the program is in balance with projected resources, it 
is difficult to see how it is. And quite frankly, in defending 
the Defense Department on this issue, as far back as you can go 
there has rarely been a program that has been in balance with 
the resources projected. There is always a program funding 
mismatch.
    And typically that is solved over time by either adding 
money, which doesn't look like it is going to occur in the 
foreseeable future, or by cutting back on the modernization 
program of reducing force structure. I think the concern this 
time around, though, is particularly acute when you realize we 
are coming, according to the Administration's projections, to 
the end of the build-up. So it is going to be very difficult to 
buy our way out of this particular program funding mismatch. 
And so, I think, again, that makes this particular problem 
particularly acute in this defense review.
    But the major question is is this the best program. Is this 
the program that really offers us the best prospects for 
minimizing the overall risks to our national security? There 
has been a lot of talk about risk today. And ideally that is 
what your defense program does. It reduces to an absolute 
minimum the major risks to the security of the country.
    And despite the disclaimers that the QDR is not a 
programmatic document, there are a lot of program decisions 
that are made in the QDR. And a lot of them, quite frankly, are 
quite good: increasing, for example, the special forces; 
developing technologies to detect radiological weapons; render 
safe teams that can disable loose nuclear weapons; more money 
for biological defense; language training; improving Army 
deployability through the Army modularity program; the 
commitment, as Dr. Korb said, to increasing our long range 
strike capability by 2018 and enhancing submarine production in 
the not-too-distant future.
    The problem is that because of the program funding 
mismatch, the lack of tough decisions over existing programs 
means that in a sense you have a lot of legacy oak programs, to 
use a kind of a forest analogy. And you have these 
transformation seedlings. Well, as the money begins to dry up, 
it is these oaks that generate program momentum over time that 
I think stand the best opportunity of being sustained.
    And these seedlings, these new, very beneficial initiatives 
that are worked into the QDR that will be of the greatest risk 
in terms of being marginalized or crowded out. And, again, I 
think that is one of the pernicious effects of not looking more 
closely at not only what we add to the defense program, but 
given resource constraints, what we cut.
    I think another issue that is missing in this document is 
the linkage between the new challenges that are identified and 
the programs and capabilities that the Defense Department talks 
about providing for our armed forces. The link between the two 
is if you have these new set of problems, how does this 
capability set, how does this defense program enable you to 
meet those problems. And so, for example, if you look at the 
issue of a failed nuclear state--and I can say this because I 
am not in the government. But what happens if Pakistan becomes 
a failed state? It is certainly not beyond the realm of 
possibility.
    Well, there are some bits and pieces in the QDR that says, 
``Well, we are going to improve our ability to detect 
radiological weapons. We are going to have render safe teams. 
We are going to have some special forces.'' But that doesn't 
really tell you how, if Musharraf doesn't avoid the next 
assassin's bullet, how we are going to deal with that country.
    And we can talk about the ability to sustain 18 Army 
brigades in the field, the combination of the active and the 
guard force. But at the end of the day, 18 brigades are going 
to get lost in the middle of Pakistan. Pakistan has about seven 
times the population of Iraq. So how are we going to stabilize 
that situation? How are we going to be confident that we will 
detect those loose nuclear weapons? What does defense of the 
homeland in-depth mean under these circumstances?
    The QDR, for example, talks about building partner 
capacity. Well, what are the means by which we are going to do 
that? In the past, we have had in the Vietnam era, for example, 
military assistance advisory groups, or MAGs. And these were 
training organizations that went to foreign countries and 
helped them prepare their own forces to deal with threats to 
their internal security. There is nothing like that in the QDR.
    So, again, how do we propose--you know, what is it about 
this set of capabilities that enables us to deal with these new 
problems that I think the Defense Department has done a very 
good job in identifying? I will also point out, I guess, a 
couple of other things very quickly and then wrap up. There are 
some issues, I think, that are important, especially if this is 
a strategic document that the QDR remains silent on. We are 
going to need allies and partners a lot more.
    Again, the QDR talks about building partner capacity. Well, 
who are they, and how are we going to enable them to assist us? 
What countries do we want as partners and allies? What kind of 
capabilities would we like them to have?
    You know, this was a steady discussion during the Cold War 
when we were in great need of allies. Well, now once again we 
find ourselves increasingly in need of allies. We need to get 
back to that discussion because if they can't pick up the 
slack, then that falls back on our own armed forces.
    Second, the industrial base--you know, we have been through 
a difficult period where we have found that an Army that was 
built for short wars found itself in a long war and has had to 
go through a kind of organizational institutional hell to try 
and adapt to deal with that very different circumstance. And 
you can see the results in the churn that is going on in the 
recruiting problems.
    Well, there is also a situation in which for the last 30 
years we have not suffered any significant attrition of our 
military equipment in war. We have not lost a significant 
number of combat vehicles, aircraft and so since the Vietnam 
War. Well, again, there are, I think, plausible contingencies 
where you can see that that attrition, not only in terms of the 
wear and tear on the human resources, but the materiel 
resources. And we have all but ignored our defense industrial 
base on that issue.
    We also talk about the need for innovation. Well, what are 
we doing to promote innovation among the defense industrial 
base? It is not clear that we are really following any 
particular strategy in that area. And yet we do want the best 
equipment for our forces in the field.
    And finally, a point that has been brought up here, which 
has to do with if you characterize the new set of challenges, 
which I think the QDR does a very good job of, you are starting 
to look at challenges that are inherently inter-departmental or 
interagency in their character, whether it is homeland defense, 
stability operations, counterterror operations, defensive of 
global commerce. These are inherently interagency kinds of 
operations.
    And just as in the 1970's and 1980's we fought the battle 
over the need to somehow bring the services together to operate 
jointly, now we need to fight the battle to bring the various 
departments and agencies of the executive branch and in some 
cases, state and local government together, to operate in a 
coherent and effective way. And I think that is the big 
challenge before us when you look at these challenges that the 
QDR sets forth.
    And quite frankly, if you read the QDR, in a couple of 
occasions it says exactly that. And if you go back to the 
origins of the QDR, which is in 1995, the Commission on Roles 
and Missions, John White, who was that commission's chairman, 
his argument was what we need is a national security review 
(NSR), not a Quadrennial Defense Review. Well, nobody was 
willing to sign up to that in 1995. And so, what you got when 
John White went to be deputy secretary of defense was a QDR, 
not an NSR. Well, quite frankly, that is what is needed.
    So in conclusion, I would say the QDR represents a good 
diagnosis of the challenges before us. It has some promising 
initiatives. It is a programmatic document as well as a 
strategic document. But there are some critical unanswered 
questions regarding resources and regarding whether we are 
really going to put the priority in the proper set of 
capabilities, given the very different circumstances in which 
we find ourselves.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich can be found in 
the Appendix on page 83.]
    Mr. Saxton. Thank you very much, Dr. Krepinevich.
    Mr. Donnelly, please.

 STATEMENT OF THOMAS DONNELLY, RESIDENT FELLOW IN DEFENSE AND 
    NATIONAL SECURITY STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Mr. Donnelly. Thank you very much. As an alumni of the 
committee staff, it is genuinely an honor to be asked to come 
back. I guess there is the old adage that amateurs do strategy 
and professionals do logistics, along the committee context. 
Certainly, professionals do afternoon hearings.
    So I appreciate the patience of the members. And since Mr. 
Marshall has sort of given away the punch line of my remarks, 
which are themselves a summary version of the brief monograph 
that I did a couple months ago, which I believe has been given, 
I will be really brief. And I want to concentrate in particular 
on one aspect of the QDR.
    I think there is a lot of congruence between what Andy had 
to say and what I would say. I would give the QDR pretty high 
marks for dealing with the question of China's rise, also 
pretty high marks for beginning to wrestle with the question of 
what to do about weak nuclear states. But the one failure that 
really strikes me as a fatal one almost is the review's dealing 
with the long war, so-called, in the Middle East. And in a 
brief time, I would like to give a fairly close analysis of 
what the report has to say and why I think that is some 
misguided.
    My overall critique would be that the Administration and 
the department continue to take a counterterrorism approach to 
what is, in my judgment, a counter-insurgency war. And if you 
read the review--and indeed, to hear the testimony of the 
preceding panel--this came through quite clearly.
    The report talks about creating forces that are more 
expeditionary and agile rather than durable and sustainable 
that are sort of technologically more advanced, particularly in 
terms of precision weaponry and information management, not by 
increased manpower. The report wants to move away against 
nations against war or deal with other kinds of wars. When, in 
fact, what we have really done since 9/11 is to invade two very 
weak, but very clear and very obvious states. So what we have 
done in the war on terror has been really a fairly conventional 
set of operations.
    And the QDR sort of describes victory as essentially a 
tactical victory. The idea is that we are supposed to find, fix 
and finish combat operations against these new and elusive 
foes. And it doesn't tell us very much about the post-combat, I 
would say, more strategic counter-insurgency operations that 
are ongoing.
    It talks about the need for better intelligence fusion and 
to produce action plans that could be executed in real time. 
All good stuff, but it doesn't tell you what to do in an 
inherently complex environment where the fog of war remains 
still quite present.
    And everything is supposed to be done through the lens of 
joint warfighting when, in fact, I think the wars that we are 
involved with and even the wars that are on the horizon are 
less likely to be conducive to joint operations than more. And, 
again, overall the theme that comes through to me is the 
emphasis on improving the tactical performance of a force that, 
in my judgment, is already tactically superbly competent. And 
this is true even in counter-insurgency operations.
    The experience of the last couple of years has been a 
really harsh schoolhouse. And to visit units on the ground 
today in Iraq is to visit units that are approaching their 
operations quite differently than they did in the immediate 
aftermath of the invasion. And likewise the training of Iraqi 
and Afghan security forces has been thus stepped up.
    But the essential problem, that of force size, still 
remains unaddressed. The problem in Iraq and Afghanistan still 
very much is what happens when we are not there, when there is 
not an American or friendly force on the street corner, in the 
neighborhoods. That is where our enemies retain and regain the 
initiative.
    And if you read the QDR description both of Afghanistan and 
Iraq, what you get, I would say I think, is a very distorted 
telling of the tale. Again, we see pictures of special 
operations forces on horseback in Afghanistan. And so, after 
the invasion, the North Atlantic Treaty Organization (NATO)-led 
International Security Assistance Force (ISAF) showed up. And 
there is no mention of the U.S. force, which is double the size 
essentially of the NATO force and more than twice as effective. 
And one only has to talk to Afghan people, both on the streets 
and in the ministries, to understand that that is true.
    The same is true in Iraq. Again, the story essentially is 
we had a blitzkrieg-like invasion, and then we started training 
the Iraqi forces. And we are doing better at that. Again, very 
little mention of the counter-insurgency operations, which, 
again, are not only by sort of weight and volume the largest 
effort that we are making, but obviously the most important.
    And, again, listening to the previous panel, the constant 
message of Iraq was a really bad idea, let us never do this 
again, and let us get out of there as fast as possible comes 
through distressingly strongly to me. To me, they measure 
victory in Iraq as not so much how fast we get out, but how 
long we stay and how peaceful and how safe it is for Americans 
both in uniform and non in uniform to be able to be in Iraq.
    I want to conclude by saying that to me this long war in 
the Middle East is not only just one of the three sets of 
challenges we face, but is really the decisive factor, I think, 
going forward into the 21st century. I see the region is 
inherently unstable, that it will continue to be strategically 
important and it will be kind of a magnet for potential great 
power confrontation, including confrontation with China going 
forward. So to me, even looking out over the 20-year horizon 
imagined in the QDR, I can't see any set of circumstances under 
which the United States is likely to withdraw certainly not 
completely or even substantially from the region.
    If you look back 25 years to the days when the rapid 
deployment joint task force, the precursor of Central Command 
(CENTCOM), was dreamed up during the Carter Administration and 
you plot out the number of man days in the region over that 
course of time, that curve has been steadily rising to the 
point in the 1990s where it was an average of more than 25,000 
every day, 365 days a year in the region. And I can only 
imagine what the number is going to be 10 years from now.
    But it is not going to go back to that level. It is just in 
the nature of the conflict in the region. And this is where we 
have to succeed. And in my judgment, this is where the QDR 
signally fails to give us the direction we need.
    Thank you.
    [The prepared statement of Mr. Donnelly can be found in the 
Appendix on page 96.]
    Mr. Saxton. Thank you very much, Mr. Donnelly.
    We have been instructed or asked by staff in light of the 
fact that we have a markup that begins at 5:30 to vacate the 
room by 5 or just a few minutes thereafter. So I am going to 
pass.
    And maybe, Solomon, if you just ask a short question.
    And if you gentlemen would be willing to give us short 
answers, we would appreciate it. So I will let you know when 
about three minutes go by.
    Mr. Ortiz. Thank you.
    Thank you so much for joining us this afternoon. And this 
committee has been doing their own defense review, you know, 
getting ready for this QDR report. Is there any areas that you 
think that this committee needs to focus on? I know that they 
are thinking about cutting the F-22 lane and talking about 
maybe strengthening the National Guard, you know, in the states 
when they are being used in Iraq and Afghanistan. What other 
areas do you think that this committee needs to focus on?
    Dr. Korb. I think the first thing is that you need a bigger 
active Army because, as my colleagues have talked about here, 
it is hard to see us not needing a lot of boots on the ground. 
And if you can have a bigger active Army, that means you don't 
have to call up the guard and the reserve, particularly the 
guard, as often as you can.
    The second thing is that the question that has come up is 
the resetting the force. Now, through the supplementals, you 
are doing that. But, you know, if we withdraw, as happened 
after Vietnam, the supplementals go away, the money for 
resetting the force. And the third is you simply have too many 
weapon systems on the drawing board within existing budgetary 
guidelines. If money was no object, sure, you would buy all of 
them. But money is an object. And I think you are going to have 
to make some hard choices. And you have to look at those 
weapons that are most effective in dealing with the threat from 
these radical jihadists.
    You have heard today about the DD(X). Well, I think your 
money would be much better putting it into a larger Army. And 
if you are concerned, a littoral combat ship, I think, can 
provide the support for the forces ashore.
    Dr. Krepinevich. Two quick responses. One is I would focus 
more on linking the defense program with the challenges that 
confront us. In other words, how do the forces and capabilities 
that this program provides enable us to deal with these 
challenges? A real disconnect--we go from the threat to the 
program, and there is no linkage there. And that is a critical 
problem.
    I will give you another example in addition to the Pakistan 
contingency, which would be if you look at the set of 
capabilities the Chinese are developing, it would be a great 
set of capabilities for a blockade of Taiwan. And how would we 
respond to that blockade? So that is one point.
    The second is I mentioned two programs, two major programs 
that I thought were beneficial in terms of the QDR. One was 
increasing submarine production in 2012. The other was long 
range strike capability by 2018. My concern is that in the 
process of working through those issues, think about the bomber 
for a minute. One thing that happened was the F-22 production 
line was extended from 2008 to 2010. Okay. That means that it 
is some future Administration that is going to have to tell the 
Air Force to stop buying F-22s. And it is some future 
Administration that is going to have to clear away a wedge to 
allow that bomber to happen.
    Think of DD(X) and SSNs. Again, by giving the go-ahead for 
DD(X), what you are doing is you are creating a funding wedge 
that is just going to explode over the next four or five years. 
And somebody is going to come to the Navy if anybody remembers 
in 2012 and say you are supposed to go up to two boats. And the 
Navy will say, ``Well, look, I am spending all this money on 
DD(X). You are going to have to give me more money if you want 
me to buy two boats.''
    So in a sense, the services pocketed, I think, some 
concessions about programs that I think are questionable in 
terms of their merit, given what the diagnosis of the challenge 
is while they made promises that some other Administration is 
going to have to hold them to.
    Mr. Donnelly. I would agree with both what Larry and Andy 
said. I would hope that you guys would also take on the 
question of resources. The nation is getting what it pays for 
from people in uniform. It is getting more than what it pays 
for. And I don't think that rearranging the programmatics is 
going to solve the strategic conundrum that we find ourselves 
in.
    The previous panel used the term resource informed as a 
substitute for not enough money. I think that there is only one 
way out of the dead end we are in. And that is to spend some 
more money.
    Mr. McKeon [presiding]. Okay. Well, I thank the gentleman.
    And I thank you, Mr. Saxton, for doing such a great job of 
running the panels. I apologize for having to go in and out 
because this is really, really important to us.
    Fast question: you all think that the submarines will 
continue to provide us strong leverage in the world you see 
ahead?
    Mr. Donnelly. I think they are essential, and particularly 
in the case of hedging against China's rise. I worry about the 
size of our sub fleet, particularly in five or ten years.
    Mr. McKeon. Mr. Krepinevich.
    Dr. Krepinevich. My personal belief is, you know, China is 
the principle maritime challenge we may have to confront. And 
what you would like to do is convince them that they don't want 
to try and compete with us in submarines. And you can do that 
one or two ways. You can try and build excess capability now. 
Personally I would be more comfortable with beginning to ramp 
up toward the end of the next decade when the L.A.-class begins 
to block obsolesce and begin the design of a new submarine in 
the fairly short-term.
    What that does is it keeps your design teams fresh, but it 
also makes the Chinese wonder what the hell are those Americans 
up to now. Because they may gain some intelligence on the 
Virginia class, but then they have got to worry about a whole 
new class of submarines. And the assumption will be they are 
even better, which I think, again, the whole idea is to avoid a 
naval arms race with the Chinese. And that might be the best 
way to do it, given resource constraints.
    Dr. Korb. I would re-core the Los Angeles class to extend 
their life. I don't know why we don't do that.
    The other thing--if you are worried about China, I would 
stop borrowing money from them.
    Mr. McKeon. Now, did you say you would re-core?
    Dr. Korb. Re-core the Los Angeles class. The other thing--
if you are really worried about China, we better stop borrowing 
money from them.
    Mr. McKeon. Okay. Bombers--what do you think?
    Mr. Donnelly. Go ahead, Andy.
    Dr. Krepinevich. Well, a couple of things. One is if you 
look at the contingency since the end of the Cold War, 
bombers--a small percentage of the sorties, enormous percentage 
of the tonnage drop. Second, the way we have gone after 
critical mobile targets is loitering. And bombers give you not 
only the range, but the capacity to loiter.
    Third, if you are worried about China down the road and you 
don't want to, again, get into a competition with China, right 
now we have really very little way to penetrate deep into 
China. And you don't want to allow the Chinese to think that 
they can create a sanctuary for missile forces, Air Force 
forces, command and control centers, leadership targets deep 
inside China where we can't reach.
    Dr. Korb. I think one of the reasons I urge you to think 
about reopening the B-2 production line, not only for what Andy 
said, but the fact of the matter is then you wouldn't have to 
depend on what I would call ugly allies where you have to make 
these compromises in order to get your short range planes in 
there.
    Dr. Krepinevich. One final point that I forgot to mention 
about the bombers is it represents a kind of cost imposing 
strategy against the Chinese in the sense that right now if all 
you have are relatively short range systems, they can layer 
their air defenses on the coast. If you can come at them from 
multiple directions and not only along the periphery, but deep 
into the interior, if they want to defend things, that really 
drives up the money they have to spend on air defenses. And I 
would rather have them spending money on air defenses than some 
of the other things like submarines.
    Mr. Donnelly. All I can add is that in addition to 
increasing not only bombers per se, but the long range, long-
loitering firepower force, I think it is necessary to take a 
more aggressive approach to reposturing, rebasing, particularly 
around the Pacific rim. It is not just the strike platforms per 
se, but even the B-2s need a lot of tanking and a lot of help 
to get over deep targets and to distribute a large bomb load 
over a lot of targets.
    Mr. McKeon. Okay. Mr. Chairman, you know, I really 
apologize for this shortness of time that we have got. And 
maybe we can go a little longer than we--if our next hearing 
fires up at 5:30, maybe we can go a little longer than had been 
recommended.
    But I would ask, gentlemen, if you couldn't be our guests 
at one of our breakfast symposiums. It is an informal thing. We 
sit around at breakfast and kick these things around with 
members able to ask any question they want. And I think we have 
got a lot more questions for this panel.
    So, gentlemen, could you do that for us?
    Mr. Donnelly. Happily.
    Dr. Korb. I would be delighted.
    Dr. Krepinevich. Happily.
    Mr. McKeon. Okay, we will fire that up in the next couple 
of weeks and look forward to seeing you. I have got a ton more 
questions. And you guys have got great insights. I mean, I 
think this has been a great tee-up. We just need three more 
hours here. Thank you.
    Mr. Saxton [presiding]. Mr. Taylor.
    Mr. Taylor. I am curious if any of you gentlemen found it 
strange that the national defense plan for the next four years 
doesn't take the war in Iraq into account at all apparently. 
And, you know, that $40 billion to $80 billion is kind of just 
off here to the side and doesn't affect what we are doing in 
any way apparently from what the first panel said.
    Dr. Korb. I agree, particularly if you talk about reducing 
the size of the Army to its pre-9/11 levels. It is like we 
haven't been through this, you know, the wars in Iraq and 
Afghanistan. And the other is in terms of the money, I think we 
are far enough along in these wars that the money should be in 
the regular budget so that you can look at them all together 
because while the supplementals are considered separately, they 
do impact the national debt.
    They do impact our position in the world. And so, I think 
it would be important to look at them. And there are some 
things if you look closely enough in the supplemental that one 
could argue should be in the regular budget, like moving the 
Army toward modularized brigades.
    Dr. Krepinevich. I think you have an excellent point, 
Congressman. The way this war ends or evolves over the next 
three or four years will have an enormous effect, I think, on 
what our military looks like. If we lose this war or if we pull 
out before we achieve some level of stability, there is a great 
opportunity that we will see a regional war going on there.
    And, again, the consequences for us in terms of the risk to 
energy resources, the potential problems associated with 
Israel, even state-on-state warfare could be substantial. Not 
only that, but the boost it would give to radical Islamists, 
not only in Iraq, but other parts of the world.
    If we are successful, I think part of success is going to 
be a significant, not 136,000, but a significant long-term U.S. 
presence in Iraq. The old saying about NATO was you needed NATO 
to keep the Russians out, the Americans in, and the Germans 
down. We will need 30,000 or 40,000 troops in Iraq to keep the 
predators out, the Irans, the Turkeys, the Jordans, the Syrias, 
the Saudi money, the Americans in, and the internal factions 
down until you can build some kind of a strong central 
government that is legitimate and democratic.
    And that is going to take a long time. And the fact that we 
aren't really addressing the implications of what this means 
for us is a big omission.
    Mr. Donnelly. Again, I would just associate myself 
violently with both Larry and Andy's remarks. The puzzle to me 
is that if this isn't a planning factor for the department, 
what is. I mean, and it makes you wonder whether the White 
House and the President talk to the Pentagon and the secretary 
of defense. They seem on such different sheets of music that it 
is just a puzzle. I cannot explain it.
    But I do think that Andy is quite right, that these are the 
first and second campaigns in a really long war. And if things 
go badly, we will be there. If things go well, we will be 
there. And the measure of simply conducting the war or engaging 
in the attempt to try to stabilize and democratize the Middle 
East is an American presence in the region. And it goes beyond 
Iraq. It goes beyond Afghanistan. I don't know where the next 
conflict is likely to be, but I would be willing to bet my 
mortgage there will be one.
    Mr. Taylor. For the record, Mr. Chairman, very quickly, I 
would like the gentlemen to, when you are comfortable, supply 
me with what you think the hidden costs of this war are, as the 
previous panel said there were none.
    Mr. Saxton. As you heard the chairman say, we are going to 
have a breakfast in the next couple of weeks, and we can 
discuss that issue.
    Mr. Abercrombie. Neil, this is a challenge now. You have 
got three minutes.
    Mr. Abercrombie. Well, it is too much.
    Mr. Saxton. He laughs.
    Mr. Abercrombie. Mr. Krepinevich, thank you for putting 
forward something I want to draw to your attention and to the 
others. And we will have to take it up. You all have read this 
thing, this Quadrennial Defense Review. Page 11 is the 
strangest column I have ever seen in my 16 years of trying to 
understand the strategic thinking and doing my best to figure 
it out. To fight beyond Afghanistan and Iraq--it is just 
strange. U.S. forces have been engaged in many countries 
fighting terrorists, helping partners to police and govern 
their nations.
    Then they talk about two elements, the line of least 
resistance and the line of least expectation. And then they go 
on to cite T.E. Lawrence. And I think this column is 
associating us with what Lawrence was doing at Aqaba.
    Now, I fancy myself somewhat of a Lawrence aficionado. And 
I for the life of me can't figure out how in the hell this QDR 
remotely reflects a Lawrencian approach for even the special 
forces or the special operations. I don't have a clue.
    And in that context then, I am trying to figure out is 
there an unspoken Pentagon resistance to this QDR, especially 
in the context of what you just said, Mr. Donnelly, about, you 
know, if you can't deal with Iraq and Afghanistan in terms of 
expenses and so on, then what can you do. Surely, they don't 
say that we have to develop an armed forces to continue to 
occupy and run entire countries. And if they don't, then what 
do they mean by citing T.E. Lawrence and apparently saying here 
on page 11 that we should develop an armed forces capable of 
dealing with the line of least resistance and the line of least 
expectation?
    Mr. Donnelly. Mr. Abercrombie, I would almost turn your 
question on its head. I don't think that there is a way to be 
successful in Iraq without a long-term, large scale presence, 
particularly at this very crucial moment. These are communities 
in Iraq who have no trust in one another and for whom as much 
as they, you know, resent Western invading and occupying forces 
also understand that the only way for them to have a future is 
to work with the United States.
    You know, we are the least bad alternative for all the 
factions in Iraq. And I don't see that dynamic changing any 
time soon.
    Mr. Abercrombie. Well, I don't know if I agree with that. 
But my point here is it seems to me it is almost schizophrenic. 
On the one hand, they seem to be saying we should be prepared 
to be able to engage in lightening thrusts and spectacular 
moves with small numbers of highly mobile people. And at the 
same time, we apparently need to be able to occupy entire 
countries and run them apparently for decades.
    Mr. Donnelly. Well, anybody who compares The Seven Pillars 
of Wisdom to the subsequent political history of the Arab world 
should understand the limitations of the T.E. Lawrence 
approach. That would be my response.
    Mr. Abercrombie. Well, Lawrence would be the first to 
agree.
    Mr. Donnelly. His experience was not entirely a happy one.
    Mr. Saxton. I thank the gentleman from Hawaii.
    We are going to have this breakfast coming up. We will 
start at 7:30.
    Mr. Abercrombie. Can we have a breakfast on Lawrence? I 
would like to have that.
    Mr. Saxton. And we will go for as long as you want to stay, 
Neil.
    Mr. Abercrombie. We will go to his letters to the Times in 
the post-war conference.
    Mr. Saxton. The good doctor from Arkansas.
    Dr. Snyder. Thank you, Mr. Chairman.
    In my brief time here, Dr. Krepinevich, I was going to read 
another little section from your written statement. You say--it 
is on page three--``As with most insurgencies, victory rests 
less in military action than in the successful treatment of 
political, economic and social ills and of winning the war of 
ideas against those advancing a perverse and dangerous 
distortion of the Islamic faith. But victory will take years 
and perhaps decades to achieve. In the interim, the military's 
job is to buy the time needed for these other elements of 
counter-insurgency to succeed.'' And that is the end of the 
quote there.
    My question gets back to what Ms. Davis was talking about 
earlier. That draws an awfully bright line between the military 
function and the rest of everything else. Did you mean to draw 
that bright a line by overstating that?
    It seems like if you have a military who is in a country 
like this--maybe this relates to what Neil was just asking 
about our only job is to buy time for other things to occur, 
that that may be too bright a bright line in terms of getting 
the workload done. Would you amplify on that, please?
    Dr. Krepinevich. Well, a quick way of giving an answer 
would be in Iraq, the center of gravity is not the enemy force. 
It is the people of Iraq. If the people of Iraq are on our 
side, we win the war. It is not like the Cold War where we 
worried, you know, do we have enough firepower to stop the 
Soviet Armies from crashing into Western Europe. We have more 
than enough military capability. We need to know who the enemy 
is and where they are. And the Iraqi people can give us that 
information.
    Dr. Snyder. Well, in the interest of time, Dr. Krepinevich, 
let me just interrupt. Our experience in Iraq, particularly my 
first visit there was it was the military that was pleading for 
authority to build sewer plants and lay sewer lines and hire 
civilians. I mean, they were the ones that were, I think, 
wanting to do this, the economic job. And they are the ones 
that meet with mayors. I mean, it seems like the line was not 
drawn very brightly.
    Dr. Krepinevich. Well, that is certainly true. And, you 
know, work tends to gravitate toward those that have a 
capability and a willingness to do it. And that is certainly 
not the way I think you would draw it up if you were starting 
from scratch. The problem is after the Vietnam War we got out 
of that business. And we stayed out of that business for about 
30 years. And now we are finding we have to get back into it. 
But if you look at the conflicts, especially where this 
insurgency is, this insurgency right now is a police war.
    You know, the police are really the organization that needs 
to be supported because they are the enduring face of security 
in their communities. And we need to get to that point. And 
then we have got to integrate that with the intelligence and 
reconstruction efforts because those are the things that will 
bring the population over to our side and begin to eliminate 
the insurgent threat. But there are no insurgency battalions or 
brigades.
    It is nothing like Vietnam in that regard. And so, really 
the military, our military, which is used to in Desert Storm 
and allied force and so on being the supported element, 
supported by diplomacy and other forms of national power. Here 
the roles are reversed. As Tom said, another case of where 
something is stood on its head. The military is really ideally 
in a position of supporting these other institutions as they go 
about their work.
    Mr. Donnelly. Just really briefly, the military is the tool 
that we have in these cases at the moment. And as important as 
it is to sort of stand up the expeditionary State Department 
or, you know, agency for international development or 
Agricultural Department, what we have now is the military. And 
we need to make the military capable and to be able to be 
successful in the here and now so that when, you know, in the 
long-term when we can create the governmental structures across 
multiple agencies that are capable of dealing with this kind of 
war, you know, that we can safely get from where we are now to 
where we need to go.
    Dr. Korb. Four years ago, Admiral Cebrowski, the late 
Admiral Cebrowski, who was in charge of transformation for 
Secretary Rumsfeld, pointed out that we know how to win wars, 
but we don't know how to secure the peace. And what he 
recommended was in the military you create two peacekeeping and 
stabilization divisions so that you could make the transition 
and then bring in the other workers. And that was our problem 
in Iraq.
    We thought we would be greeted as liberators. We not only 
didn't have the capacity, we didn't provide the guidance for 
the troops as to what to do. And they really did not have the 
skills. And they sort of made them up as they went along. Some 
commanders did better than others, and that is why we are 
paying, paying the price. And when we sent General Garner over 
there and Ambassador Bremer, they did not have the people that 
they needed to do the things that you are talking about.
    Mr. Saxton. Dr. Snyder, thank you.
    I want to thank the panel for being here. We are going to 
look forward to seeing you again shortly.
    And thank the members for their participation.
    And we are going to break now, and we will be back here at 
5:30.
    Thank you very much.
    [Whereupon, at 5:05 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 14, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 14, 2006

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 14, 2006

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. No, I realize you probably won't have anything 
definitive on July 1st. But if you set back with section 1004, I think 
you will find a very, very succinct yet comprehensive outline, which 
probably covers virtually all of the initiatives that you just spoke 
of. And if we can synthesize this and put it together--I don't know if 
we can do it for the 2007 budget, but I think we can take giant strides 
toward dealing with some of the funding issues that were inherent in 
Mr. Taylor's question.
    Secretary England. The Office of the Under Secretary of Defense for 
Acquisition, Technology and Logistics (OUSD(AT&L)) and the Office of 
the Under Secretary of Defense, Comptroller (OUSD(C)) are coordinating 
the development of a report in response to Section 1004. Preliminary 
meetings have been held with representatives of various offices within 
OSD and with representatives of the Service Financial Management (FM) 
organizations to discuss the requirements and a way-ahead for meeting 
the reporting requirement. A tentative schedule has been established 
and the Services have been requested to appoint action officers to 
participate in the development of a response to the congressional 
language. The Department anticipates submitting the report, as 
required, by 1 July 2006.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MARSHALL
    Mr. Marshall. How well does the proposed defense program address 
the existing and emerging threats to national security?
    <bullet>  The Navy's DD(X) destroyer, at roughly $4 billion a copy, 
is a firepower platform. Yet the naval challenge from China, if it 
comes, will be centered on its submarine force, a threat against which 
the DD(X) is irrelevant.
    Secretary England. The Navy Staff recently completed a 
comprehensive review of expected Joint warfighting demands through the 
2020 time frame and their associated capability and capacity 
requirements. The Navy conducted extensive campaign analysis, against a 
wide spectrum of potential scenarios including some with stressing 
submarine threats, to determine the sufficient mix of capabilities 
required for success. As with previous analysis, a mix of platforms 
(ships and aircraft), sensors and networks was required for success 
against a robust submarine threat. DD(X)'s transformational 
capabilities, particularly in terms stealth and its advanced sensors, 
made significant contributions to the overall success of the Joint 
force.
    Successfully defending the Joint Maritime force from submarines 
requires a myriad of systems including the P-8A (MMA), MH-60R, attack 
submarines, and ships including DD(X). These platforms, augmented with 
a number of off-board distributed sensors and integrated through a 
sophisticated system of networks, will provide the defense in-depth 
required to protect the Sea Base in any operation. Although primarily 
tasked with providing Naval Surface Fire Support to the Joint force in 
the littoral battlespace, the multi-mission DD(X)'s inherent stealth 
and advanced sensors will make it significantly less vulnerable to 
enemy submarines while enabling it to locate and attack threat 
submarines. DD(X) is a critical component of the Navy's 
transformational roadmap and it will deliver advanced capabilities 
across all warfare areas and serve as a technology feeder for other 
future platforms like CG(X) and CVN-21.
    Mr. Marshall. How does the proposed defense program address the 
existing and emerging threats to national security?
    <bullet> The V-22 Osprey, which has caused numerous deaths and 
excessive cost overruns and which suffers from unresolved development 
issues while offering only marginal advantages compared to existing 
helicopters.
    Secretary England. The V-22 Osprey was granted full rate production 
in September 2005. The aircraft can fly twice the speed, cover six 
times the range, and lift three times the payload of the legacy 
aircraft it is replacing. The V-22 is on track to achieve Initial 
Operational Capability in 2007 and is scheduled to deploy in support of 
combat operations during the same year.
    Even as we expedite the fleet introduction of the Osprey, we 
continue to pursue programs which further reduce the cost of the 
aircraft. The V-22 Program has a robust cost reduction program to 
include a planned 5 year multi-year procurement program commencing in 
FY08 (with FY07 Economic Order Quantity/Cost Reduction Initiatives 
(CRI) investment). The last four lots procured have met or exceeded our 
affordability targets. Through cost reduction initiatives, lean 
manufacturing, and a multi-year procurement strategy, the program is 
well-leveraged to meet its procurement objectives.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. Mr. Abercrombie's question on Northern Command really 
did get me to thinking. I'd like to request for the record a list of 
what elements, be it people, be it material, whatever, the Northern 
Command supplied to south Mississippi in the days prior to and let's 
say 30 days after the hurricane. I think that's a fair question.
    Secretary England. Two days prior to Katrina landfall (27 August 
2006), U.S. Northern Command (USNORTHCOM) designated Naval Air Station 
Meridian, MS as a Federal Emergency Management Agency (FEMA) 
operational staging area and deployed a Defense Coordinating Officer 
(DCO), Colonel Damon Penn, to Jackson, MS to co-locate at the State 
Emergency Operations Center with the Federal Coordinating Officer, Mr. 
Bill Carwile.
    One day prior to landfall, the Air Force Emergency Communications 
team (Hammer Ace) arrived at Keesler AFB, MS to provide communication 
support for the base which was in Hurricane Katrina's path.
    On 30 August, USNORTHCOM deployed search and rescue helicopters, 
established Joint Task Force Katrina at Camp Shelby, MS and had the DCO 
staff located in Jackson, MS. USNORTHCOM provided helicopter transport 
to the FEMA preliminary damage assessment teams.
    By 31 August, over 36 helicopters and the USNS COMFORT were en 
route to Mississippi to provide transportation and medical support. A 
125-person Navy Construction Battalion (SEABEE) unit was in place at 
Gulfport-Biloxi, MS. On 1 September, a helicopter delivered relief 
supplies to the Special Boat Team--22 (SBT-22) at Stennis, MS and 
another helicopter moved to Keesler AFB to provide transportation 
support. Additionally, there were airdrops of Meals Ready to Eat (MRE) 
and potable water along the Gulf Coast.
    On 2 September, Keesler AFB was designated as an operational 
staging base for FEMA and the Gulfport SEABEES cleared debris. 
USNORTHCOM began purchasing pharmaceuticals and medical supplies for 
the Mississippi Department of Health and contracted a passenger ship to 
provide lodging for disaster victims and responders.
    On 3 September, the 24th Marine Expeditionary Unit was designated 
Special Purpose Marine Air-Ground Task Force and sent to the Gulf 
Coast. They moved to Stennis Space Center on 4 September and received 
support from the USS IWO JIMA. The Army Reserve Center in Greenwood, MS 
was authorized as a shelter on 4 September and four water purification 
units were sent to the Hancock Medical Center and the Jackson County 
Singing River Hospital.
    By 5 September, one week after landfall, five C-5s flew to Gulfport 
with 320 short-tons of MREs. The USS WHIDBEY ISLAND and the 11th Marine 
Expeditionary Unit arrived at Gulfport, MS. The USS HARRY S. TRUMAN 
provided helicopter staging support off the coast of Biloxi, MS. The 
U.S. Army Reserve Center in Laurel, MS was used as a shelter for relief 
workers. By the first week after Katrina landfall, the Department of 
Defense (DOD) had delivered 700,000 liters of water, 2.6 million pounds 
of ice and 900,000 MREs in Mississippi.
    During the following week, 6-12 September, the 1st & 8th Marines 
were at Stennis Space Center and a mobile micro-bacteria lab relocated 
to at Camp Shelby. The Navy Mobile Construction Battalions 7 & 133 
removed debris, reopened piers, worked in the Emergency Operations 
Center and established staging areas in Gulfport and Biloxi. In 
Pascagoula, the USS GRAPPLE began clearing the channel, the USNS 
COMFORT moored and provided medical support and the USS BATTAN crew 
supplied food and medical relief. Vicksburg U.S. Army Reserve Center 
had provided overflow classroom support for the Mississippi school 
system. By the end of the second week, DOD had delivered over 10.8 
million liters of water, 60.2 million pounds of ice and 8.5 million 
MREs to the citizens of Mississippi.
    From 13-19 September, DOD delivered an additional 320 short-tons of 
MREs to Gulfport and the 54th Quartermaster Company (Mortuary Affairs) 
had personnel at Camp Shelby. Two Armed Forces Institute of Pathology 
DNA teams flew in to assist the coroners in Gulfport, MS. The USS HARRY 
S. TRUMAN and the USS WHIDBEY ISLAND were released and departed for 
home station. Aerial bug spraying for medical abatement began in 
Gulfport.
    From 20-26 September, in response to the Mississippi Governor's 
request for firefighting support, DOD flew C-130s with the Modular 
Airborne Fire Fighting Systems from Idaho to provide aerial 
firefighting support. Two berthing barges were provided to support up 
to 600 people with food, water, shelter, medical assistance and 
counselors. DOD sent communication packages to the emergency 
departments of the cities of Pearlington, Bay St. Louis, Gulfport, 
Biloxi, Ocean Springs and Pascagoula.
    USNORTHCOM also coordinated humanitarian assistance from Canada, 
Mexico, the Netherlands and France. The USS BATAAN directed support 
operations of Canadian, Dutch and Mexican ships; Canadian and French 
divers; as well as Mexican Marines in Pascagoula and other areas 
impacted in Mississippi.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. ORTIZ
    Mr. Ortiz. Preventing the acquisition or use of Weapons of Mass 
Destruction is a key goal of our Nation's defense. However, on page 33 
of the report, you cite the following: ``Based on the demonstrated ease 
with which uncooperative states and non-state actors can conceal WMD 
programs and related activities, the United States, its allies and 
partners must expect further intelligence gaps.'' Shouldn't one of the 
goals of the Department [be] to close those intelligence gaps? Why 
didn't the QDR address this?
    Secretary England. The 2006 QDR placed emphasis on closing 
Intelligence, Surveillance, and Reconnaissance (ISR) gaps, particularly 
relating to WMD. Specifically, the report emphasized the need for 
improved capabilities in the following areas: locate, tag, and track 
WMD; detecting fissile material; persistent surveillance over wide 
areas; and human intelligence. However, despite anticipated 
improvements in these areas, intelligence gaps will likely persist: if 
there is any area in which we expect high levels of secrecy and 
deception on the part of potential adversaries, it is with regard to 
their WMD development and capabilities.
    Mr. Ortiz. The QDR discusses changes in DOD to improve its 
capabilities to provide foreign assistance and conduct homeland 
security missions. Yet, the Department is not the lead agency for 
either activity. What changes are the Departments of State and Homeland 
Security making to improve their capabilities in this area? If these 
Departments improve their abilities, will the Department of Defense 
then forego some of the changes it proposes in the QDR?
    Secretary England. The QDR emphasized the importance of unity of 
effort with interagency and international partners. We are working 
collaboratively with the Departments of State and Homeland Security to 
improve unity of effort across the U.S. Government. U.S. national 
security interests are well-served by having more capable civilian 
agencies to address challenges at home and abroad, whether those 
challenges take the form of natural disasters or complex stabilization 
missions. For this reason, the Department urges Congress to increase 
funding for State Department efforts, including State's Coordinator for 
Reconstruction and Stability. Improvements that the Department of 
Defense and our interagency partners make are complementary and 
strengthen our collective ability to face 21st century challenges. The 
QDR Report emphasized ``[s]upporting and enabling other agencies, 
working toward common objectives, and building the capacity of 
partners'' as indispensable elements of the Department's mission. As 
partners become more capable, roles and responsibilities may be 
reassessed.
    Mr. Ortiz. The QDR envisions a Navy with new missions and some 
expansion of current missions. It also anticipates an expansion of 
Special Operations Forces and Marine missions. How do you reconcile 
that with the recent closure decisions to ensure that we don't close 
new bases such as Naval Station Ingleside and then spend millions more 
recreating a facilities capability that the Department of Defense 
already has available?
    Secretary England. The BRAC's recommendations became part of the 
foundation of the QDR, just as the National Security Strategy and 
National Defense Strategy did. As with the BRAC, the QDR aimed to 
achieve economies of scale by promoting joint and multi-Service 
solutions, without sacrificing needed capability. BRAC outcomes and 
operational demands of the 21st century are consistent with the ongoing 
reorientation of Navy, Marine Corps, and Special Operations 
communities, as reflected in the QDR.
    Addendum: In the case of Naval Station Ingleside, this installation 
was closed to reduce excess infrastructure and to create a center of 
excellence for undersea warfare at a fleet concentration area. This 
reorganization removes the mine warfare community from a location that 
is remote from the Fleet, thereby better supporting the shift to 
organic mine warfare.
    Mr. Ortiz. The QDR recommends changes to stop terrorist attacks on 
the U.S. and outlines initiatives to address irregular warfare. How do 
we ensure that the rhetoric matches the reality? For instance, maritime 
security has obviously been front and center in the public eye lately, 
clearly indicating the concern about port security against attack. We 
also know that SOUTHCOM tracks significant traffic (arms, drugs, 
people) moving north out of their AOR, but we lose sight of that 
traffic once we get into Mexico and under the auspices of NORTHCOM. Yet 
once we implement the latest round of BRAC, we will have zero active 
duty surface naval bases located in the Gulf of Mexico. How do you 
envision working with the Department of Homeland Security to clearly 
define your roles and missions and ensure that the Gulf of Mexico 
region is not left without sufficient surface maritime presence to 
deter attacks potentially emanating from that area? How does this 
relate to the plan to expand the WMD capabilities for a domestic 
mission?
    Secretary England. Recognizing the complexity of operating in the 
approaches to, as well as within, the US, the QDR called for expanding 
dialogue and collaboration with the Department of Homeland Security. In 
the maritime approaches, the U.S. Navy and U.S. Coast Guard work 
closely together, both in practice and in training and exercises. In 
December 2004, DOD and DHS signed a Memorandum of Agreement (MoA) that 
incorporated the U.S. Coast Guard in support of DOD maritime homeland 
defense operations. This MoA established a joint command, control, and 
coordination structure using existing DOD and U.S. Coast Guard 
operations centers. The Secretary of Defense approved a new USNORTHCOM 
Maritime Homeland Defense Execute Order in June 2005, which allocated 
forces, established procedures and coordination requirements, and 
articulated rules of engagement to counter threats to the U.S. 
homeland, including WMD proliferation. Finally, DOD and DHS signed an 
additional MoA that emphasized DOD support to U.S. Coast Guard maritime 
homeland security operations in April 2006. Close coordination is 
essential to our ability to interdict terrorists and others, possibly 
with WMD materiel and components, attempting to enter the United States 
via maritime approaches such as the Gulf of Mexico.
    Mr. Ortiz. What do you think of the proposed changes to the way in 
which the DOD should interact with foreign governments and military 
forces? What force does that leave for the Department of State? In 
particular, what does this mean in terms of shifting cost balances as 
described on page 18 of the QDR?
    Dr. Krepinevich. The discussion on page 18 of the QDR refers to the 
ability of radical Islamists to impose disproportionate costs on the 
United States. It provides an example of the 9/11 attacks, which cost 
about a million dollars to mount, but caused over $40 billion in annual 
spending by the U.S. government to prevent a repetition. This 
represents a 40,000:1 cost ratio imbalance.
    In response, the QDR advocates seeking opportunities to impose 
disproportionate costs on the enemy. Unfortunately, while this concept 
makes sense, the QDR offers no insight as to what kinds of costs they 
might be (e.g., time, resources, casualties, etc.), or how they could 
be imposed. Nor does the QDR mention whether planning is underway to 
identify U.S. cost-imposing strategies. One would expect that such 
planning would include options involving all the instruments of 
national power, to include diplomacy, strategic communications (e.g., 
propaganda), military and economic instruments.
    Mr. Ortiz. What do you think of the proposed changes to the way in 
which the DOD should interact with foreign governments and military 
forces? What force does that leave for the Department of State? In 
particular, what does this mean in terms of working with international 
allies and partners, as discussed on page 87 of the QDR?
    Dr. Krepinevich. This section addresses DOD's intention to increase 
its ability to build ``partner capacity,'' a term that connotes 
training and equipping foreign forces, be they allies or friendly 
states threatened by aggression (especially from radical Islamists). 
The DOD does not elaborate on how much funding will be required, nor 
does it establish the force within the U.S. military structure 
necessary to train large numbers of foreign troops to build partner 
capacity.
    The role left for the Department of State is unclear. During the 
Cold War, U.S. Military Assistance Advisory Groups (MAAGs) were 
deployed to many foreign countries to build partner capacity. They 
reported to the ambassador, as well as to the Defense Department. The 
Department of State may be involved in a similar manner if and when the 
DOD establishes similar programs.

                                  <all>

</pre></body></html>
